<html>
<title> - INCENTIVES, BENEFITS, AND MEDICAL CARE FOR FEDERAL CIVILIAN EMPLOYEES DEPLOYED TO COMBAT ZONES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                         [H.A.S.C. No. 110-95]

 INCENTIVES, BENEFITS, AND MEDICAL CARE FOR FEDERAL CIVILIAN EMPLOYEES 
                        DEPLOYED TO COMBAT ZONES

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 16, 2007

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]









                     U.S. GOVERNMENT PRINTING OFFICE

40-715 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

















               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Steve DeTeresa, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant
































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, October 16, 2007, Incentives, Benefits, and Medical Care 
  for Federal Civilian Employees Deployed to Combat Zones........     1

Appendix:

Tuesday, October 16, 2007........................................    35
                              ----------                              

                       TUESDAY, OCTOBER 16, 2007
 INCENTIVES, BENEFITS, AND MEDICAL CARE FOR FEDERAL CIVILIAN EMPLOYEES 
                        DEPLOYED TO COMBAT ZONES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

McDonald, Larry, Deputy Assistant Secretary for the Office of 
  Technical Assistance, U.S. Department of Treasury..............    11
Miller, W. Kirk, General Sales Manager, Foreign Agricultural 
  Service, U.S. Department of Agriculture........................     7
Swartz, Bruce C., Deputy Assistant Attorney General, Criminal 
  Division, U.S. Department of Justice...........................     9
Thomas, Ambassador Harry K., Jr., Director General of the Foreign 
  Service and Director of Human Resources, Department of State...     3
Ward, Mark S., Senior Deputy Assistant Administrator, Bureau for 
  Asia and Near East, U.S. Agency for International Development..     5

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    42
    McDonald, Larry..............................................    85
    Miller, W. Kirk..............................................    58
    Snyder, Hon. Vic.............................................    39
    Swartz, Bruce C..............................................    63
    Thomas, Ambassador Harry K., Jr..............................    45
    Ward, Mark S.................................................    52
    Wolff, Otto J., Chief Financial Officer, and Assistant 
      Secretary for Administration, U.S. Department of Commerce..    90

Documents Submitted for the Record:

    Letter from Hon. Frank R. Wolf...............................    95

Questions and Answers Submitted for the Record:

    Dr. Snyder...................................................    99
    Ms. Tauscher.................................................   115




















 
INCENTIVES, BENEFITS, AND MEDICAL CARE FOR FEDERAL CIVILIAN EMPLOYEES 
                        DEPLOYED TO COMBAT ZONES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                         Washington, DC, Tuesday, October 16, 2007.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. Welcome to the Subcommittee on Oversight 
Investigations hearing on Incentives, Benefits and Medical Care 
for Federal Civilian Employees Deployed to Iraq and 
Afghanistan.
    This is our subcommittee's third meeting to discuss these 
issues. On September 18, witnesses from the Department of 
Defense and Labor and GAO testified before this committee on 
benefits and medical care for DOD employees. Following that 
hearing, on September 24 the Deputy Secretary of Defense issued 
a department-wide memorandum to remind everyone that military 
treatment facilities would care for injured DOD civilians and 
to announce updates on how wounded DOD civilians are to be 
medically tracked.
    On October 2, the subcommittee held an informal discussion 
with wounded DOD civilian veterans of Iraq and their advocates 
about particular problems they experienced in trying to get 
medical care and support after deployment.
    Today's focus will be on civilian personnel from non-DOD 
agencies who volunteer to serve in a combat zone.
    Since September, this subcommittee has been investigating a 
variety of interagency issues raised by the ongoing wars in 
Iraq and Afghanistan. Military means alone are clearly not 
enough to bring about success in either country. Civilians from 
across the Federal Government are increasingly being called 
upon to help us achieve our goals in these dangerous 
environments through the use of provincial reconstruction teams 
and other programs.
    An unfortunate, but inevitable, consequence of deploying 
civilians to combat zones is that some of them may be injured 
or killed, and this risk was sadly underscored by the recent 
death of a U.S. Department of Agriculture employee in 
Afghanistan. Tom Stefani was killed on October 4 by a roadside 
bomb while performing his duty as an agricultural advisor to a 
PRT.
    This committee, as do all Americans, offer deepest 
sympathies to the family, friends and colleagues of Mr. Stefani 
and to those of all the other civilian personnel who were 
killed or wounded while serving in high threat areas.
    The purpose of today's hearing is to consider issues 
related to the hazardous nature of this duty. First, given the 
critical need for U.S. Government Federal and civilian 
employees to deploy to Iraq and Afghanistan, what kind of 
incentive or benefits are provided to encourage those with the 
right skills and experience to do so?
    Second, what practices and policies are in place to provide 
medical care for deployed Federal civilian employees both while 
overseas and upon returning home? We want to be assured that 
these veterans, just as with our military veterans, are not 
forgotten after their deployment and that they are not 
abandoned when they need medical care or help to navigate the 
Workers' Compensation process.
    One area of particular interest is whether civilians 
receive adequate diagnoses and treatment for mental health 
disorders that commonly occur in combat zones. The State 
Department's Office of Medical Services recently surveyed 877 
foreign service officers, including 474 who served in Iraq or 
Afghanistan, about stress-related symptoms that appeared after 
serving unaccompanied tours in dangerous and isolated posts.
    The survey showed that 18 respondents probably had symptoms 
of PTSD, and 132 possibly had symptoms. Compare these results 
with the Department of Labor report that a total of only 11 
claims have been filed for various emotional conditions by 
employees from all Federal agencies. I would like to hear from 
witnesses today how we reconcile this large disparity.
    How we compensate and care for today's deployed civilians 
will be noted by those who are considering the nation's calls 
for future volunteers, such as the expanded PRT program or 
Civilian Reserve Corps that the President announced in his 
January State of the Union Address. The success of the 
transition from conflict to stability in regions of national 
interest will depend heavily on the efforts of civilians. If 
our nation asks them to volunteer for these hazardous missions, 
then we are responsible for their well-being.
    We have a good panel of witnesses to help us examine these 
issues. Ambassador Harry Thomas, director general of the U.S. 
Department of State; Mr. Mark Ward, senior deputy assistant 
administrator for Asia and Near Asia, U.S. Agency for 
International Development; Mr. Kirk Miller, associate 
administrator for the Foreign Agricultural Service, U.S. 
Department of Agriculture; Mr. Bruce Swartz, deputy assistant 
attorney general, criminal division, U.S. Department of 
Justice; Mr. Larry McDonald, deputy assistant secretary of the 
Office of Technical Assistance, U.S. Department of Treasury.
    I would now like to call on Mr. Akin for any comments he 
would like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 39.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    And good afternoon to our witnesses. Thank you so much for 
joining us.
    Just, first, a piece of housekeeping, Mr. Chairman, if I 
could submit for the record a letter from Frank Wolf, 
recommending a piece of legislation.
    Dr. Snyder. What is the number of that resolution?
    Mr. Akin. It is H.R. 1974.
    Dr. Snyder. 1974. All right. By Mr. Wolf. Without 
objection.
    [The information referred to can be found in the Appendix 
on page 95.]
    Mr. Akin. Thank you.
    This is actually the third in a series of hearings on this 
subject, and our committee is particularly interested in the 
PRTs and the work when you bring Department of Defense, State 
Department and other different employees together. How do those 
teams come together? How are the non-DOD people compensated? 
Obviously they can't be ordered into theatre. Some of the 
places they are working are particularly dangerous. How is 
their health care? How are they paid? How are the incentives 
that they receive? And ultimately, how do we in the future 
design into our government the capacity to put these kinds of 
teams together when they are multi-departmental.
    And this connects, those of us who work in the military 
area, back to the days of the Goldwater-Nichols and the idea of 
forcing the Navy, the Air Force and the Army to play as one 
team. And the question has been raised in many of these 
theatres. It isn't just DOD that needs to be the team, but it 
also needs to be State and a number of other agencies as well. 
So that is the overall context.
    I want to just finish by thanking every one of you and the 
people that you represent for taking some very risky 
assignments and doing what some of us on this committee think 
is some pretty exciting work as well. So thank you for joining 
us.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 42.]
    Dr. Snyder. Thank you, Mr. Akin.
    Our custom here is we will start the five-minute clock for 
the opening statements. It is more as a reminder to you. If you 
have things you need to say beyond that five minutes, you go 
ahead and do it. There are five of you today, so we will be 
probably about 20 to 25 minutes anyway, and then we will go on 
a five-minute clock for all the members.
    I think we will go in the order that I read off: Ambassador 
Thomas, Mr. Ward, Mr. Miller, Mr. Swartz and Mr. McDonald.
    We will begin with Ambassador Thomas.

STATEMENT OF AMBASSADOR HARRY K. THOMAS, JR., DIRECTOR GENERAL 
    OF THE FOREIGN SERVICE AND DIRECTOR OF HUMAN RESOURCES, 
                      DEPARTMENT OF STATE

    Ambassador Thomas. Thank you.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to testify before you today and address the 
Department's efforts to support our dedicated employees serving 
in Iraq and Afghanistan.
    Ensuring that our employees have the necessary support 
structures which allow them to carry out their duties 
throughout the world is a critical component of Secretary 
Rice's transformational deployment. The men and women of the 
State Department, through their presence in every corner of the 
world, serve on the frontlines in the global struggle against 
terrorism.
    We know terrorism firsthand having lost colleagues, 
American and foreign national alike, throughout the years, most 
dramatically in the embassy bombings in Tanzania, Lebanon and 
Kenya.
    Our commitment to supporting America's interests abroad has 
remained steadfast and is, in fact, second to none. For our 
size, and I would note that the entire Armed Service Corps is 
less than the size of one military division, we are doing our 
part to protect and defend America. With your support through 
initiatives such as the Civilian Reserve Corps, we will be even 
better able to respond to the demands our country faces helping 
build democracy.
    Although I have served as director general of the foreign 
service and director of human resources for only one month, I 
have taken a keen interest in ensuring that the services we 
provide to our personnel serving in Iraq and Afghanistan 
support them and their families as they fulfill this vital 
mission.
    I am leaving for Iraq today to personally survey the 
Department's operations and learn firsthand.
    The men and women in the Department serve under dangerous 
and challenging circumstances throughout the world. 
Approximately 20 percent of the foreign service employees have 
volunteered to serve in Baghdad, Kabul and the 50-plus 
provincial reconstruction teams throughout Iraq and 
Afghanistan. We successfully filled positions in Iraq for 2007, 
including those in Baghdad and in the PR teams with volunteers, 
and we filled nearly all of our unaccompanied positions 
worldwide also with volunteers.
    Fill rates for Iraq are higher than our worldwide fill 
rate. With only 11,500 diplomats to staff 267 posts worldwide, 
the State Department constantly stretches to get the best 
talent where it is most needed. To continue to meet effectively 
the challenge we face to staff embassy Baghdad and the Iraq 
PRTs with qualified officers, we introduced in June 2007 the 
first ever country-specific special assignment cycle for Iraq.
    Although we have just begun the summer 2008 bidding cycle, 
we have filled 70 percent of these volunteers already and will 
continue through our assignment department. We have incentives. 
Foreign service and civil service career employees who serve in 
Iraq are eligible for financial and non-monetary incentives, as 
outlined in the Department's Iraq Service Recognition Package.
    This package includes but is not limited to compensation, 
thought for families, onward assignment preference, R&R and 
promotion consideration. The Department is committed to meeting 
the medical and mental health needs of our employees preparing 
for service in and returning from Iraq, Afghanistan and other 
overseas locations. Our Medical Services Office has operated a 
Foreign Service Health Unit in Baghdad since July 2004.
    Moreover, the Department's office of Mental Health Services 
has a network of regional psychiatrists in the field as 
resources for employees at other unaccompanied and onward 
assignment posts.
    We take the health and well-being of our employees and 
their families seriously. And Secretary Rice has made clear 
that she is personally committed to getting our people the help 
they may need.
    The Department is improving its abilities to support 
employees who may be experiencing PTSD or other mental issues 
associated with high-stress assignments. The Office of Medical 
Services is reviewing the current pre-assignment briefing and 
mandatory outreach sessions to determine what changes might be 
most effective, such as directing more time to discuss mental 
health counseling, resources, insomnia and social withdrawal.
    We are also implementing a deployment stress management 
program that will develop, teach, counsel and become involved 
in all activities supporting employees and involved with 
unaccompanied deployed.
    These are exciting and challenging times. The Department 
has adapted to changing conditions throughout our 200-year 
history. I am confident that with your support we will 
successfully do so again.
    [The prepared statement of Ambassador Thomas can be found 
in the Appendix on page 45.]
    Dr. Snyder. Thank you, Ambassador Thomas.
    I believe we are having a little light problem, so please 
follow the clock along. You did just fine. It is just the light 
wasn't on.
    I should have said that, without objection, all of your 
written statements will be made part of the record.
    Mr. Ward.

      STATEMENT OF MARK S. WARD, SENIOR DEPUTY ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA AND NEAR EAST, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Ward. Mr. Chairman, Ranking Member Akin, members of the 
subcommittee, thanks very much for inviting me today as well to 
describe how the United States Agency for International 
Development recruits, deploys and cares for its employees 
during and after service in Iraq and Afghanistan.
    I have been a foreign service officer with USAID for 21 
years. I have served in five countries, including one 
assignment for 18 months without my family in Pakistan after 9/
11. No one has more respect for our military than the foreign 
service. They help keep us safe and often work closely with us, 
in the PRTs for example, to improve lives and provide hope.
    But it means a lot to us that this subcommittee also 
appreciates the civilian agency's contribution in this very 
difficult and dangerous world today, so thank you for your 
support.
    I think we have made real progress at USAID on employee 
incentives, allowances and benefits since we returned to 
Afghanistan in 2001 and deployed to Iraq in 2003. Sure, there 
is more that can be done, but I am proud to say that our 
Foreign Service officers, as Ambassador Thomas has said, have 
volunteered in sufficient numbers to get our work done not just 
in Iraq and Afghanistan, but also in the other two countries 
that we consider too dangerous for families and normal 
assignments, Pakistan and Sudan.
    Compared with the other agencies represented here today, 
USAID is very small. We have 2,400 civil service and foreign 
service employees around the world, 1,200 of them serve 
overseas. Despite our small size, we have been able to meet the 
demanding requirements for foreign service officers in Iraq, 
Afghanistan, Pakistan and Sudan on a volunteer basis. To date, 
about 130 employees have served in Iraq and 180 in Afghanistan, 
most for tours of at least 1 year.
    That is about 26 percent of our total foreign service 
workforce. Four of our PRT veterans from Iraq and Afghanistan 
are here with me this afternoon in the audience.
    Our foreign service officers don't work alone in Iraq and 
Afghanistan. All of our overseas officers also employ foreign 
service nationals, contract employees, some American, some 
other nationalities, and in countries like Afghanistan and 
Iraq, where local capacity is weak, we also employ third 
country nationals that work for USAID in other countries in the 
region, such as India or the Philippines.
    In Afghanistan, for example, of the 227 personnel at USAID 
today--that is up from 100, 3 years ago, only 36 are foreign 
service officers, 121 of those are foreign service nationals; 
that is, Afghan employees. This is our model throughout the 
world. The small cadre of foreign service officers serves as 
the core of our operations, but we rely a great deal on the 
services of local and third country professionals, employees of 
other agencies, and I join you in saluting Tom Stefani from 
USDA who was working with us at the PRT in Ghazni. And not to 
mention those employed by our contractors and grantees that we 
engaged to carry out our projects.
    My written statement describes in some details what we are 
trying to do to attract foreign service officers for 
assignments in Iraq and Afghanistan, and I won't review that 
now. But more than any other incentive, I think what matters 
most is USAID's worldwide mission. As a development agency, our 
mandate is to operate in the poorest nations of the world, 
often in areas of extreme hardship and devastating poverty.
    Our employees are not strangers to high-risk environments, 
the destruction of war or natural disasters. The tsunami in 
East and South Asia and the earthquake in Pakistan are the two 
recent examples where we have successfully launched major 
reconstruction programs under very difficult and dangerous 
circumstances.
    Mr. Chairman, I am very pleased that USAID has been able to 
fill its staffing needs with volunteers to now, but looking 
forward we are concerned that the pool of qualified foreign 
service officers willing and able to volunteer is shrinking. In 
addition, we know that the Federal workforce is aging. In USAID 
alone, more than 30 percent of foreign service officers will be 
eligible to retire in 2007, including me. And by 2011, that 
number jumps to more than 45 percent.
    While we are using creative approaches to fill positions in 
Iraq and Afghanistan, it is becoming apparent that as it is 
currently resourced we may not be able to sustain the staffing 
requirements in Iraq and Afghanistan or meet any surge 
requirements elsewhere in the world. So our leadership is 
seized with the challenge in analyzing how best to meet these 
urgent needs in the future, including increasing the number of 
foreign service officers to create a larger pool from which to 
seek bidders for our most dangerous assignments.
    The good news, and I do a lot of recruiting for USAID 
around this country, the good news is that applications for 
foreign service are very high, despite the greater risks our 
officers face in the world today.
    Again, thanks for your time and thanks for your support.
    [The prepared statement of Mr. Ward can be found in the 
Appendix on page 52.]
    Dr. Snyder. Thank you.
    Mr. Miller, from the Department of Agriculture.

  STATEMENT OF W. KIRK MILLER, GENERAL SALES MANAGER, FOREIGN 
      AGRICULTURE SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Miller. Mr. Chairman, members of the subcommittee, I am 
pleased to be here before you today to talk about the 
incentives and benefits and support provided to U.S. Department 
of Agriculture employees who volunteer to serve in combat zones 
in Iraq and Afghanistan.
    Rehabilitating the agricultural sector in Afghanistan and 
Iraq is critical to the U.S. government's overall strategy 
toward the economic, political and security environment in both 
countries. In Afghanistan, 80 percent of the population is 
involved in farming and herding. In Iraq, agriculture is the 
second largest contributor to the country's gross domestic 
product and employs 25 percent of the labor force, making it 
the largest employer in Iraq.
    At the onset of my remarks, I want to emphasize how much we 
appreciate the work of USDA employees who volunteer to serve in 
Afghanistan and Iraq. We are proud of them. USDA employees are 
serving as provincial reconstruction team agricultural advisers 
in both countries, as technical advisers in Afghanistan and as 
ministry advisers in Iraq. In addition, numerous USDA staff 
have taken on temporary duty assignments in Afghanistan and 
Iraq.
    All of these employees are making substantial sacrifices to 
apply their skills and expertise to revitalizing these 
countries agricultural institutions and rebuilding agricultural 
capacity.
    We strongly believe that in return we should provide them 
with the most equitable incentives, benefits and best possible 
support we can. In Afghanistan, 37 USDA agricultural advisers 
have served on PRTs since 2003. As early as 2003, USDA deployed 
staff to Iraq for long-term and short-term assignments. During 
the period from 2003 through today, 30 USDA employees have 
served in volunteer assignments in Iraq.
    Again, we owe them our utmost respect and gratitude for 
what they have done and are doing under some extremely 
difficult circumstances. Beginning in September 2007, all USDA 
long-term advisers in both countries served on 12-month 
deployments. They work actively with the Afghan and Iraqi 
governments, the U.S. military, as well as with the other 
civilians from the Department of State, U.S. Agency for 
International Development and non-governmental aid 
organizations to help harness each country's economic potential 
by assessing agricultural needs, strengths, technical expertise 
in developing agricultural projects.
    In March 2007, as part of President Bush's New Way Forward, 
former Secretary of Agriculture Mike Johanns reached out to all 
USDA agencies, encouraging them to allow their employees to 
volunteer for duty as agricultural advisers in Afghanistan and 
Iraq.
    As a result, we received over 80 applications; 45 were 
interviewed, 25 were deemed qualified and 18 are in various 
stages of deployment. All are expected to be in Iraq by 
November 30, 2007. We are recruiting and interviewing for 13 
additional PRT candidates for Afghanistan and 15 for Iraq. We 
expect they will all be deployed no later than March 2008.
    Before they are deployed, all long-term USDA volunteer 
advisers must be medically cleared by the State Department and 
obtain a secret level security clearance. Concurrently, USDA 
PRT liaison officers in country and in Washington work with the 
Department of Defense and the Department of State counterparts 
to determine appropriate and individual site placements by 
matching skill sets of the agricultural advisers with the 
technical needs of each PRT.
    USDA ensures that all long-term temporary duty staff fully 
participate in available security and country study programs 
that are offered by the Departments of State and Defense. Staff 
going to Afghanistan attend the joint U.S. Civilian-Military 
Afghanistan PRT training program at Ft. Bragg, North Carolina. 
This program covers medical combat life saving training, force 
protection training, military and civilian coordination, 
relationship building with the Afghan government and PRT 
simulation exercises.
    Staff deploying to Iraq for long-term assignments are 
required to attend the Foreign Affairs Counterterrorism Fact 
Training at the Foreign Service Institute. The two-week program 
includes training on personal safety and area studies related 
to the assignment. The course instructs participants in the 
practical skills necessary to recognize, avoid and respond to 
potential terrorist threat situations.
    Staff going to either Iraq or Afghanistan receive USDA 
specific orientation, both in Washington, D.C. and in country 
after arriving there. In addition, advisers deploying to Iraq 
participate in the Foreign Service Institute PRT team training 
and orientation program. Upon arrival in country, staff are 
advised by the PRT liaison officers, by the U.S. Embassy 
regional security officers and the medical unit.
    In Afghanistan, long-term advisers also meet with 
Department of Defense intelligence officers.
    All staff are issued and trained in the use of protective 
body armour, including eye, ear and torso protective gear.
    Once in country, USDA continues to support our staff 
through site visits and regular conference calls, regional 
workshops and training. Complete medical care and coverage is 
provided by the Department of Defense or Department of State, 
whichever is most accessible at the time when care is needed. 
While a U.S. Government employee is in Afghanistan or Iraq, 
when it comes to incentives and benefits, USDA follows the 
model of the Department of State, Afghanistan and Iraq Service 
Reconciliation Packages. These packages outline the variety of 
special pay and leave incentives available to those serving in 
these combat zones.
    Long-term staff receive a package of allowances and 
differentials on top of their regular salary that equates to an 
additional 75 percent of base salary plus applicable overtime 
compensation.
    In deference to time here, I am going to skip through some 
of the rest of this. But finally, it is with much sadness that 
I make you aware of the recent death of a USDA foreign service 
employee, Steven Thomas Stefani, on voluntary assignment with 
the USDA Foreign Agricultural Service in Afghanistan.
    And I appreciate your acknowledgment, Mr. Chairman, and 
also that of Mr. Ward, of his honorable service.
    He was serving on a provincial reconstruction team as an 
agricultural adviser, and he lost his life in an explosion that 
impacted his convoy near Ghazni. Our heartfelt sympathy and 
prayers go out to his family, friends and coworkers in their 
time of sorrow, and we pledge to do everything we can to build 
on the many accomplishments of not only Mr. Stefani, but all of 
the other USDA advisers. You are providing tremendous 
assistance to the people of Afghanistan and Iraq.
    Again, we want to thank you for the acknowledgement. I know 
the family will be pleased to know that you mentioned his 
service in your comments.
    With that, I am going to conclude my comments, and I will 
be happy to answer questions.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 58.]
    Dr. Snyder. Thank you, Mr. Miller.
    Mr. Swartz, from the Department of Justice.

    STATEMENT OF BRUCE C. SWARTZ, DEPUTY ASSISTANT ATTORNEY 
     GENERAL, CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE

    Mr. Swartz. Mr. Chairman, Mr. Akin, members of the 
committee, thank you for this opportunity to discuss the 
important and courageous work done by the men and women of the 
Department of Justice in Afghanistan and Iraq.
    There are three points in particular that I would like to 
make this afternoon. First, the Department of Justice has been 
in both of these countries from the beginning. Second, we have 
been present not only in the capacity of developing rule of 
law, but in an operational capacity as well, performing 
important counterterrorism, counter-narcotics and law 
enforcement missions. And, third, in both countries we have 
been present with the partnership and support of the Department 
of State and the Department of Defense.
    In Afghanistan, for instance, the Drug Enforcement 
Administration (DEA) has deployed not only a country team, but 
specialized teams of agents, so-called fast teams, that have 
been involved in significant bilateral narcotics investigations 
as well as direct interdiction of heroin traffickers.
    The FBI in turn has taken on a counterterrorism role from 
the start in Afghanistan, deploying not only a country team, 
but rotating teams of 30 or more agents and support personnel 
to perform counterterrorism and law enforcement tasks.
    On the prosecutorial side, the Department of Justice has 
deployed four senior Federal prosecutors to work with the 
Criminal Justice Task Force in Afghanistan. And the benefit of 
their work, the value of their work to the people of 
Afghanistan and to the United States, was demonstrated again 
only two weeks ago with the sentencing in New York of Afghan 
narcotics kingpin Baz Mohammad, who is the first person to be 
extradited from Afghanistan to the United States as a direct 
result of the work of our Federal prosecutors there and DEA.
    And finally, in Afghanistan, the United States Marshall 
Service has provided vital protective services for our 
personnel, including the personnel of the Criminal Justice Task 
Force, as well as working with Afghan counterparts.
    Similarly in Iraq, the Department of Justice has from the 
start deployed agents and prosecutors both for rule of law 
purposes and to carry out counterterrorism and law enforcement 
missions. More than 1,500 employees of the FBI have served in 
Iraq since 2003. They have done so both in terms of the Legatz 
country team office there, as well as in the deployment of 
rotating teams of agents that have been assigned to the Baghdad 
Operation Center for Counterterrorism Purposes, and as advisers 
to the major crimes task force, an Iraqi Department of Justice 
effort to investigate the most serious crimes, such as murder 
and kidnapping, taking place in Iraq.
    Similarly, the other United States Department of Justice 
agencies have also deployed and performed important and 
critical roles in that country. ATF has been present, as it has 
been present in Afghanistan in terms of post-blast work and it 
has deployed 24 agents to the combined explosives exploitation 
cell. It has also deployed 24 canine handlers to that country.
    VA has provided more than 50 agents over the years, 
including in support of the major crimes task force.
    The United States Marshall Service, courageously operating 
in the Red Zone throughout this period, has provided security 
systems not only to our personnel there but to the Iraqi 
judiciary as well as helping to establish the Iraqi capacity to 
defend its judiciary and its witnesses in these critical cases.
    All of these law enforcement agencies have as well provided 
advanced training, specialized training, to their Iraqi 
counterparts. In the rule of law context more broadly, the 
Department of Justice recently was honored to have one of its 
employees, Jim Santelle, an assistant United States attorney 
from Wisconsin, named by Ambassador Crocker to be Rule of Law 
Coordinator for the embassy in Baghdad, requiring Mr. Santelle 
to help coordinate more than 300 personnel and dozens of 
agencies involved in rule of law training in that country.
    He is assisted in that task by a Justice Department 
attache, a former judge from North Carolina, as well as now 
six, soon-to-be eight, resident legal advisers. These resident 
legal advisers are assistant United States attorneys or other 
Federal prosecutors from the Department of Justice, and they 
have been present in Iraq from the beginning, as well, thanks 
to State Department funding and support. They have played a 
critical role in the creation of the Central Criminal Court of 
Iraq as well as such organizations as the Law and Order Task 
Force that was recently created by General Petraeus and in 
working together with Iraqi investigating judges.
    As well, we have had Federal prosecutors of the Regime 
Crimes Liaison Office, which was created to try the most 
serious crimes committed by Saddam Hussein and his regime.
    Finally, with the support, again, of the State Department, 
we have had police training elements in Iraq from the 
beginning, including an original assessment team through our 
International Criminal Training Assistance Program, through 
ICITAP. That program now works closely with the Department of 
Defense through CPATT in support of the police-training 
mission. We have two Federal managers, senior managers, 
involved, working with DOD, as well as 191 contracted senior 
police officers and trainers.
    Similarly, we have worked directly with the embassy on the 
creation of the prison service and have as well there two 
positions and subcontracted positions as well in that regard.
    Those individuals have all performed heroically as well, I 
might add, in positions of extreme danger, police academies and 
prisons.
    My written testimony sets out some of the incentives and 
benefits that the Department of Justice has provided to the 
people that it has sent to Iraq, but in closing I would like to 
note that the men and women of the Department of Justice who 
have gone to Iraq and Afghanistan, like their colleagues who 
serve in the Department of Justice overseas worldwide, have 
done so primarily because of their commitment to the rule of 
law and to fulfill their mission to protect not only the 
citizens of the countries where they are working, but the 
citizens of the United States.
    Thank you.
    [The prepared statement of Mr. Swartz can be found in the 
Appendix on page 63.]
    Dr. Snyder. Thank you, Mr. Swartz.
    Mr. McDonald from the Treasury Department.

STATEMENT OF LARRY MCDONALD, DEPUTY ASSISTANT SECRETARY FOR THE 
  OFFICE OF TECHNICAL ASSISTANCE, U.S. DEPARTMENT OF TREASURY

    Mr. McDonald. Mr. Chairman and members of the committee, 
thank you for the opportunity to testify today about the 
treasury department personnel serving in Iraq and Afghanistan.
    In addition to my written testimony, I have submitted a 
one-page table summarizing information relevant to Treasury 
personnel in Iraq and Afghanistan. It lays out the facts with 
respect to numbers of employees, medical care, deployment 
incentives and so on. So in my oral statement, I would like to 
focus on three points from my written testimony.
    First, I would like to emphasize, as my colleagues have, 
that the Treasury Department places great importance on the 
careful recruitment, preparation, deployment and reintegration 
of our overseas personnel serving in Iraq and Afghanistan and 
elsewhere and that we take care to coordinate these steps with 
our sister agencies.
    Our recruitment effort is informed and indeed substantially 
guided by information from our colleagues on the ground, both 
at Treasury colleagues and their collaborators from the State 
Department and other agencies at the U.S. embassies in Baghdad 
and Kabul.
    The preparation and deployment of Treasury personnel taking 
up posts in Iraq and Afghanistan is fully integrated with a 
State Department-led medical clearance process, as well as 
specialized training in security matters and other facts of 
life in these countries, that all officials must be aware of.
    Our returning personnel are debriefed with Treasury and 
other agencies on all aspects of their experience in Iraq and 
Afghanistan. This is an opportunity to identify and address not 
only issues of substance but also as needed personal and 
medical matters that may require attention. In this latter 
regard, Treasury is considering ways to strengthen our efforts 
and to coordinate more fully with others.
    Mr. Chairman, the second point I would like to highlight is 
that Treasury has had good success in attracting and retaining 
very well-qualified and dedicated people to serve in Iraq and 
Afghanistan. Throughout the entire period of our engagement in 
these countries, from the cessation of hostilities to the 
present, I have seen outstanding people step forward and 
continue to step forward. This includes current and former 
Treasury personnel, the Treasury family, so to speak, as well 
as outstanding individuals from the private sector and state-
level governments who have expertise and a commitment to public 
service.
    What brings them in and what keeps them coming back? Mr. 
Chairman, I know almost every one of them, and I can tell you 
that it is not primarily the benefits package. While that 
package offers some appropriately attractive incentives, that 
is not the main motivating element. As others on the panel have 
indicated, each person who deploys to Iraq or Afghanistan of 
course has his own story to tell, but I would say from my many 
discussions with them that the common motivating element is the 
sense that they can make a difference in matters of historic 
importance to the United States and to the countries where they 
serve.
    Which brings me to the third point that I would like to 
emphasize. Treasury personnel serving in Iraq and Afghanistan 
have indeed made a difference and their accomplishments have 
been facilitated by close collaboration and coordination with 
other agencies.
    Although Treasury's overseas presence in Iraq, Afghanistan 
and elsewhere in the world is very small, the importance of the 
economic and financial issues that they cover is big. In my 
written testimony, I provide a number of examples of 
accomplishments in Iraq and Afghanistan. At this point, by way 
of illustration, I will note simply two of them. In Iraq and 
Afghanistan respectively, one of the most important and, 
frankly, little know accomplishments was the successful 
introduction and nationwide acceptance of a new national 
currency.
    The new currencies designed by Iraqis and Afghanis and 
introduced with our help have laid the foundation for stable 
monetary conditions, and they serve as a unifying element 
across both countries. This accomplishment, which involves 
careful analytical work, planning, public diplomacy, transport 
logistics and security would not have been possible without 
close collaboration among Treasury, the State Department, 
USAID, the Department of Defense, maybe even Justice.
    Similarly, the successful negotiation of international debt 
relief agreements for Iraq and Afghanistan, a significant 
accomplishment, was made possible by the expertise of Treasury 
debt advisers and, once again, close collaboration among 
Treasury and other agencies, in particular State Department 
and, though not an agency, the NSC.
    Here again, many elements had to come together. Technical 
and policy analysis, training and diplomacy. Both public and 
behind the scenes. These are two examples among many. They 
illustrate not only Treasury's efforts, but also the merits of 
a coordinated old government approach to reconstruction work. 
In both instances, progress was facilitated by drawing upon the 
comparative advantages of individual agencies and the combined 
efforts of government officials and civilians with specialized 
expertise who stepped forward.
    Drawing upon such real world experience in Iraq, 
Afghanistan and elsewhere, Treasury is collaborating with our 
interagency partners and the State Department coordinator for 
reconstruction and stabilization to strengthen the U.S. 
government's ability to respond quickly and effectively to 
future reconstruction challenges.
    Mr. Chairman, this concludes my oral statement. I thank you 
and the members of the committee and would be happy to answer 
any questions.
    [The prepared statement of Mr. McDonald can be found in the 
Appendix on page 85.]
    Dr. Snyder. Thank you all for your written and oral 
statements.
    We will now begin. We will put ourselves on the five minute 
clock, going in order back and forth between the sides--for 
those who came, who were here at the time of the gavel went 
down, and the order in which people came in after that.
    Just to put this in context, you know, you all are here 
because we think that the work that you and your people do is 
important. As the President has said when he talked about 
expanding the PRTs, that General Petraeus and Ambassador 
Crocker testified to, where this committee is coming from, this 
subcommittee is coming from, particularly Ms. Davis and Mr. 
Davis, who head up a working group on interagency reform, but 
several other members have an interest in it. We are concerned 
at multiple levels of government that there is not very good, 
not as good as it should be cooperation and collaboration 
between different agencies in a wartime setting.
    So that is where we are coming from, and part of it is to 
see exactly what is going on with our personnel there, where 
the rubber meets the road, the folks that you care about the 
most, the ones in Iraq and Afghanistan today, and so we have 
had a series of hearings and you are here as part of that.
    I have to say, Mr. Miller and Mr. Swartz, I was struck in 
your written statements by the following paragraph. I am 
quoting now from Mr. Miller's.
    ``To improve our ability to respond to overseas challenges 
and provide the personnel expertise needed will require that we 
increase our numbers of available, trained and deployable 
personnel within our department and others and that we support 
them with a structure in Washington that conducts planning and 
coordination. Agriculture is working with interagency partners 
and a coordinator for reconstruction and stabilization at the 
Department of State to build that capacity and to support 
development of a 'civilian reserve corps,' of outside experts 
that we can also call on to fill additional requirements.''
    And that is the end of your quote, Mr. Miller, from your 
written statement.
    The challenge I have is that identical paragraph, Mr. 
Swartz, is in your written statement. The only difference is, 
instead of Agriculture, it says Department of Justice. Every 
word. Not one preposition, not one adjective, not one pronoun 
different.
    And so my first question is, who wrote that, where did it 
come from and how did it get in your written statement that you 
forwarded to this subcommittee today? And you may feel free to 
consult with whoever provided that language to you.
    For members, while they are collaborating, it is on page 
two of both Mr. Miller's statement and page two of Mr. Swartz's 
statement.
    Mr. Swartz. Mr. Chairman, I can say that from the 
Department of Justice side, that that was drawn apparently from 
another document involving the discussion of the State 
Reconstruction and Stability Office, a document that we have 
worked on, and it was provided I believe by the NSC.
    But I think that the larger point, if there is some 
question of whether or not that is in fact the position of the 
Department of Justice, I would like to make clear, since I was 
the one responsible ultimately for that testimony, that that is 
precisely the position that we do take with regard to the 
reconstruction and stability operations. I have worked closely 
with that office, as have my colleagues at the Department of 
Justice, to help we believe shape the future ability of the 
United States to respond to these types of issues.
    Dr. Snyder. I will come back, Mr. Swartz, to what it means.
    Mr. Miller, how did that language get in your written 
statement?
    Mr. Miller. As far as I can tell from the staff, I think it 
came from the same source document from NSC.
    Dr. Snyder. Can we be provided with that source document?
    Mr. Miller. Certainly. If we can find it, we will provide 
it.
    Dr. Snyder. Because the problem that it causes for me 
personally, and I have not discussed this with any other 
members nor the staff. We are here to help you. And frankly, 
there really was not a whole lot--I mean, your statements are 
fine. In fact, I can pretty much come away from your statements 
thinking things are going pretty well. They are getting their 
folks out there. They like their incentive packages, they are 
promoting. I mean, you are not ending up with a paragraph that 
says here is what we need from Congress.
    But when I see identical language, it tells me there is 
someone pulling your strings. There is someone sitting out 
there saying here is the points, men. We don't want anyone 
acknowledging we have got problems. When I see identical 
language from two what are supposed to be totally independent 
agencies, and so it would be helpful to see that document.
    In the final time I have left, I do want to ask you what 
that language means, since you have included it. When you talk 
about ``To improve our ability to respond will require we 
increase our numbers of available, trained and deployable 
personnel,'' that sounds like a money problem.
    Are you saying that your budgets need to be substantially 
increased in order to provide the kind of personnel and 
redundancy that you need to meet these unanticipated needs?
    Mr. Swartz, go ahead.
    Mr. Swartz. Mr. Chairman, let me address the particulars of 
the Reconstruction and Stability Office, and I will turn it 
over to my colleagues at State as to the status of that office, 
where it stands with regard to legislation and funding.
    But I think that the point, far from being an attempt to 
sugarcoat the situation, the very point of that paragraph is 
that in fact we do believe that a coordinating structure, as 
provided by the Reconstruction and Stability Office under 
Ambassador Herbst, is a useful way of moving forward. I think 
we all have discovered in the course of this extended set of 
conflicts that the ability to have onboard a group that is 
trained, a reserved corps that can deploy immediately in these 
types of situations, is highly valuable.
    Of course, the Department of Justice does that now in that 
regard. As I mentioned in my opening statement, we both are law 
enforcement agencies and are prosecutorial and police training 
organizations. We are able to deploy almost immediately and 
particularly assessment teams.
    But the strength of the Reconstruction and Stability Office 
would be to have a structure in place, interagency, that would 
allow us to move forward in that regard.
    So I understand entirely your concern about the same 
statement appearing in both, but I would suggest and submit 
respectfully that far from being some attempt to hide a 
problem, it suggests that we have seen a problem and suggests a 
way forward.
    Dr. Snyder. Mr. Miller.
    Mr. Miller. Mr. Chairman, I strongly would echo everything 
Mr. Swartz has indicated here.
    I don't think this was an effort to be--some kind of a 
sinister plot of any kind. I think it was a positive statement 
that we lifted from the Swartz document, which we will try to 
provide to you, as we indicated, to indicate in fact we welcome 
the opportunity to have a coordinated effort under the State 
Department's leadership, one desk, one group that will be 
providing that leadership. It will be efficient. It will make 
sure that we all have the same benefit packages we are offering 
to our civilian employees, and we think that will be positive.
    I would comment regarding your comment about the budget 
impact, that in fact we have had a budget request in for the 
last--the President's budget for the last two years. In 2007 we 
had a request in for $5 million for support for our PRT people. 
That was not provided. And this year we have got a request in 
for $12.5 million, and it has not been funded yet either.
    So we are looking for that funding supporting in line with 
the President's budget request.
    Dr. Snyder. Money that the President requested from 
Congress but Congress did not satisfy?
    Mr. Miller. That is right.
    Dr. Snyder. Or money that we requested from the President's 
budget that the President didn't request?
    Mr. Miller. No. It was money in the President's budget 
request that----
    Dr. Snyder. But we didn't----
    Mr. Miller [continuing]. That Congress didn't provide.
    Dr. Snyder. Thank you.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    I got the same kind of impression listening to you, and I 
don't have any doubts as to your sincerity and the fact that 
with the resources you have and the way things are set up, you 
are going over there and doing the best job you can.
    We have heard a fair amount of testimony from the 
Department of Defense that feels like their point is, we could 
use a whole lot more in most of the areas that you represent. 
So it wasn't so much critical, but it is just saying we still 
have this joint, this kind of situation that we need to work 
on.
    So I guess the first thing that I would ask would be, if we 
were--let us say that we knew we were going to get into other 
situations, such as we did in Iraq, and that those things may 
come up from time to time. What is the logical way to structure 
that? Is it logical for each agency to have a certain bank of 
people or a database, at least, even possibly civilians, that 
you monitor? Or is it more logical to actually have some 
separate organization which, I hate to call it nation building 
or whatever, but first of all, if you want to comment about how 
that might be structured.
    At least from my trips to Iraq, when I first went there, we 
heard we got the new currency system going. That is really 
cool. And not going to be long, and we will be wire 
transferring money and everything. And now four years later, I 
go back and they say yes, we still can't wire transfer money. 
You know, it is not very hard to put a laptop with the software 
on it, but we can't find any personnel that we can trust to 
actually do the business of operating a branch office of a 
bank. And so everybody takes their cash home to their family 
when they get their pay from the military.
    So, you know, we hear stories about the fact, we have got a 
jail full of people, but we don't have any judges to try them 
or any, you know, the justice system is taking time to put that 
altogether.
    I don't doubt that takes time to do, but just your 
thoughts. Because that is what we are trying to do. We are a 
very problem-solving oriented committee. We are not 
particularly partisan. We are here to try to take a look, what 
have we learned, how can we do things better in the future. And 
this is something that keeps coming up, is this issue of how do 
we play as a team, not just State and DOD but everybody else as 
well.
    Your comments?
    Ambassador Thomas. Congressman, we think that the Civilian 
Reserve Corps that the President requested is the way to go. We 
ask that congress enact legislation for the Civilian Reserve 
Corps.
    As you know, Congressman, the State Department, with our 
size, we have mostly generalists. Our specialists are our 
office management specialists, our computer technicians, our 
physicians and such. But to staff Iraq, Afghanistan or any 
other crisis, we will need city planners, urban planners, other 
people who are specialists in organizations, veterinarians, 
some of which obviously USDA has provided to the effort in 
Iraq.
    If we go with the legislation that the President has 
proposed, if it is enacted, the Civilian Reserve Corps, then we 
will be able to reach out to Arkansas, to Charleston, to other 
places. Get a doctor who may want to work. Get a judge who 
wants to work. We will be able to train them, provide them with 
a security clearance, with training, with language training in 
one facility. They will be able to train together as a team, 
much the way the National Guard does, or the reserve does, and 
then go home. And when their country needs them, they will be 
able to come forward to go to wherever they have the crisis of 
the moment in a coordinated and efficient fashion.
    Mr. Akin. Thank you.
    Mr. Ward. If I can just add to that. There is also two 
pieces of this new model above the Civilian Reserve Corps, and 
that is within the government, and you alluded to that in your 
question, sir.
    At one level above the Civilian Reserve Corps, which, as 
Ambassador Thomas said is out in the private sector, akin to 
what the Army does with the reserves, is that officers in our 
agencies will have been identified and available at the call of 
this office, this coordinating office at the State Department, 
to deploy when the need is determined by the President and the 
secretary of state.
    And there will be a group that is called the Active 
Response Team or Corps. And it is the team not unlike the 
disaster resistance response teams that USAID deploys after a 
natural disaster. They will be the ones that deploy very 
quickly after the President makes a determination to go.
    Then there is a group within our agency that is larger that 
will deploy for a longer term, and then they will be for an 
even longer term, they will be supported out of the Civilian 
Reserve Corps that Ambassador Thomas is talking about.
    So there are three layers of this, and we are working out 
the details on this now. I sound a little bit more informed 
about this because I actually got a briefing from Ambassador 
Herbst about this yesterday, because we are all asking the same 
questions. And so that is my understanding of how it is going 
to work.
    Mr. Swartz. And, Mr. Chairman, if I may, Mr. Akin, at the 
risk of sounding like it is pre-programmed, I can say as well 
that from the Department of Justice point of view, we think 
that the strength of this proposal is that the active reserve 
corps would draw upon and actually supplement personnel at the 
Department of Justice, particularly the personnel that we 
already have assigned to our international operations both on 
the law enforcement side and the prosecutorial side.
    And that group, which has the expertise, would be both 
strengthened and provide the nucleus for the reserve corps and 
the more extended deployments.
    Mr. Akin. Thank you, Mr. Chairman.
    I see my time has run out, so we can move on to the next--
--
    Dr. Snyder. We will now go in the order in which members 
arrived after the gavel. Mr. Bartlett, followed by Ms. Sanchez.
    Mr. Bartlett. Thank you very much.
    It is said that we are always fighting the last war. Which 
means that in the war that we are now fighting, we have trouble 
distinguishing between combatants and non-combatants. It is 
said of past wars that for one person on the frontline, we 
have, what, five or six people in support roles. So we had one 
person in harm's way and five or six that were not in harm's 
way. And clearly, everyone who is in the theatre now is in 
harm's way because of the IEDs and so forth.
    Also, in the major wars of the past, they were all fought 
by regular military and the guard and reserve were what they 
were intended to be. They were in reserve and they were called 
up when we were in the extremes.
    Today, of course, we cannot fight without guard and 
reserve. It is clear that a 19-year-old cannot have the skills 
of a 39-year-old. And so many of the skills necessary for 
fighting are resident only in the guard and reserve. So clearly 
they have to be there. They didn't really anticipate that when 
they signed up, and it wasn't the kind of thing they did in the 
past.
    And in addition, in today's war we have, what, about two-
thirds as many civilians there, many of them pretty much in 
harm's way, as much as the soldiers, sailors and so forth are.
    Clearly, we have to rethink how we structure ourselves for 
fighting, how we take care of those who are in harm's way, 
because we have had very sad stories here of civilians having 
difficulty in getting the quality of health care that the 
soldier right beside them got because they were civilians, and 
he was a soldier, and we were structured to take care of the 
soldier, and we had never anticipated civilian casualties right 
next to the soldier.
    So the question I want to ask you is whose responsibility 
is it to think through two things, one of them how we structure 
ourselves to fight this kind of war in the future and second, 
who has the responsibility of deciding how we take care of the 
people who are in harm's way and injured? If we just continue 
business as usual, they will still be fighting the last war in 
the war after this. So we clearly have to change. Whose 
responsibility is it to decide how we are going to structure 
ourselves to fight when a lot of the fighting today is really 
nation building, not what we were training our military people 
to do.
    So whose responsibility is it to think that through and 
restructure that? And whose responsibility is it to decide how 
we take care of the wounded, whether they be civilian or 
military?
    Ambassador Thomas. Congressman, thank you for that.
    I would like to deal with the latter first.
    In terms of medical personnel, whether they are State 
Department or military, if they are wounded, the military will 
take care of them. We have a medical doctor, we have a nurse, 
we have a social worker, we have regional psychiatrists from 
the State Department, who will take care of people who have 
ordinary challenges in Iraq or Afghanistan. But if somebody is 
wounded, the military would take care of them right there.
    We have had two cases of traumatic brain injury. Both were 
in Afghanistan. They were civilians. They were brought back to 
the U.S. and treated at Walter Reed. And successfully treated.
    In terms of post traumatic stress syndrome, our able 
medical staff is treating people who already exhibit. We are 
concerned, and we are working with the interagency process 
about people who may have that in the future, because we know 
that may take time to exhibit.
    We have a deployment stress management program, a high 
stress assignment program. So I think we are very good on the 
medical side these days for people in the theatre and people, 
at least in the foreign service and our civil service, who come 
back to Washington to the State Department. We work an 
interagency process to make sure the benefits are the same.
    I cannot speak to who is responsible for war planning. I 
believe that would be the President in consultation with the 
Congress. But in terms of the interagency process, I would like 
to be clear that not only Ambassador Herbst's Civilian Reserve 
Corps but the entirety, we meet regularly. We are trying to 
work out any bureaucratic problems and hurdles so that we can 
bring banking and other things to people in a quick and 
efficient manner. We understand that they are challenged to 
deliver that.
    Dr. Snyder. Ms. Sanchez for five minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    So Ambassador Thomas, let me just get this straight, 
because in the September 24 memo from Deputy Security of 
Defense England, he talks about health care treatment service 
to non-military being provided by the military personnel. But 
it also says that it has to be under compelling circumstances 
and authorized for these civilians.
    So is that just a blanket authorization already set in 
place or is there an authorization that has to happen each and 
every time a civilian gets medical care from DOD?
    Ambassador Thomas. I have not seen Deputy Secretary 
England's letter. But my understanding is that if you are 
wounded, wherever, in Iraq or Afghanistan, and a military 
doctor is available, he will take care of you, or she will take 
care of you.
    If you have a regular medical issue, the State Department, 
or doctor who is there, takes care of you, or we can call in a 
regional psychiatrist.
    Ms. Sanchez. Okay.
    Mr. Ambassador, you also mentioned that the State 
Department's current staffing levels permit only five percent 
of the foreign service to be in long-term training of any kind.
    What impact does having only five percent have at any one 
time have on the rotation cycle of the foreign service? What 
would be the ideal percentage to be in long-term training?
    Ambassador Thomas. Thank you for that question.
    We would like to have a training compliment of about 15 
percent, which is equivalent to what the military does. For 
example, someone who is taking Arabic, it takes two years to 
study Arabic, two years to study Chinese, so you need some two 
people behind and in front to be deployed.
    When you can't have that, can't provide the type of 
training that you need so that people can learn Arabic, can 
learn Chinese, can forward deploy into the villages and cities 
and let the American people know what is going on.
    Ms. Sanchez. My understanding of the normal process is that 
usually language training is for a year. So are you saying that 
you are not--that if you are going to cite Arabic or Chinese 
for somebody, that they are going to get the two years or they 
are only going to get the one year? Or are you saying that you 
need to plan five moves ahead on the chess board so that the 
Arabic is covered for the next ten years or something?
    Ambassador Thomas. No, ma'am.
    Arabic, Chinese, Korean and Japanese are two years.
    Ms. Sanchez. In the foreign services?
    Ambassador Thomas. Yes, ma'am.
    Hindi, Urdu, Farsi, Hungarian are one year. So you will do 
two years, you will do one year of Arabic, for example, at our 
Foreign Service Institute. Then you will go to Tunis. Same 
thing with----
    Ms. Sanchez. Then you will do three years in Tunis?
    Ambassador Thomas. No.
    Ms. Sanchez. Two years?
    Ambassador Thomas. Second year of language training in 
Tunis, one year in Washington, Virginia, one year in Tunis.
    Ms. Sanchez. And then be deployed?
    Ambassador Thomas. And then you will be deployed.
    Ms. Sanchez. For how long?
    Ambassador Thomas. Excuse me, ma'am?
    Ms. Sanchez. For how long, typically?
    Ambassador Thomas. Two to three years, depending on where 
you are going. And that is done based on whether it is a 
hardship assignment. We have posts that are dangerous posts--it 
will be 15 to 25 percent or 5 percent, but most people assigned 
Arabic are going to 2-year assignments.
    Ms. Sanchez. So you are basically talking about having 
first-year and second-year students, basically, in these 
languages, so that the overlap is there?
    Ambassador Thomas. What we need, ma'am, is that if I assign 
someone to Arabic training today, that for two years we have to 
have somebody to go to that job in two years and somebody to 
follow behind this officer in two years.
    Ms. Sanchez. Okay. Thank you, Mr. Chairman. I don't have 
any other questions.
    Dr. Snyder. What we will do, gentlemen, we will stand in 
recess here.
    I am going to ask the staff to distribute each of you a 
copy of Secretary England's letter and call your attention to 
the next to the last paragraph, in which it talks about non-DOD 
civilian personnel, and we may ask you to comment on your 
thoughts about that letter after you have had a chance to look 
at that.
    But we will be in recess probably for 20 minutes, in that 
range.
    [Recess.]
    Dr. Snyder. The other doctor on the committee, Dr. Gingrey, 
for five minutes.
    Dr. Gingrey. Mr. Chairman, thank you.
    I didn't hear all of the witnesses testify. I came in a 
little bit later.
    But, Ambassador Thomas, I want to maybe direct my question 
to you. This idea of a civilian volunteer corps, and I think 
you referenced maybe comments that the President made in the 
State of the Union in regard to volunteerism in general and 
what people should, could, would do to serve their country in 
ways other than serving in the military, as an example, and I 
thought that was a good idea.
    I just wonder where we are in regard to that. You may have, 
in your written and oral testimony, may have already spoken to 
it, but I missed that. And I am curious to know what we have 
done and how that would work. I think it is intriguing, as an 
example, would, as Dr. Snyder just referenced, our prior life, 
the two of us as physicians, would you go after medical 
personnel and maybe a family doc, you know, who might want to 
step forward and work? Are there any definitive plans to do 
that, to bring people in, and once they make application, say, 
draft them forward and train them?
    So if you can elaborate on that a little bit more, I think 
that is a very intriguing concept.
    Ambassador Thomas. Thank you very much, Congressman.
    Ambassador John Herbst's leads the Office of Stabilization 
and Reconstruction, under which we have the active response 
corps and the civilian reserve corps.
    As the President stated in the State of the Union, this is 
before Congress to enact legislation to allow us to fully 
realize this proposal. It is extremely important, as my 
colleague Mr. Ward said. First group of people would be from 
the interagency process, the interagency group. These are 
people who already work for the government who have expertise, 
who would go in for the short time, the way our USAID dark team 
does.
    The second group, however, would be the Civilian Reserve 
Corps, where we would look for trained people who are doctors, 
lawyers, veterinarians, whomever, who might be able to respond 
to a crisis to support their country, be it in Iraq, 
Afghanistan or another crisis place that we cannot foresee 
today.
    The important thing is to have these people ready so that 
we can respond and help people. Why we want to do it through 
one organization is because people have to have medical 
clearance. They need to learn languages. They have to have 
security clearances. They need the same training. They need to 
have team building.
    Dr. Gingrey. In what organization would that be?
    Ambassador Thomas. That would be under the State 
Department.
    Dr. Gingrey. The Department of State?
    Ambassador Thomas. Yes, sir.
    And we believe we are ready. And again, we are asking that 
Congress enact that legislation.
    Dr. Gingrey. Great. Well, I think that sounds good.
    I have got a little bit of time left, and I want to propose 
this question either to Mr. Ward or Mr. Miller or any of the 
panelists in regard to people who have served on provincial 
reconstruction teams.
    As they come back, I am assuming that you debrief them and 
learn best practices so that you can, the next cadre that moves 
forward into the field, that deploys, that they will be able to 
do an even better job than the ones that have already served in 
that capacity. And I wanted to ask you, how do the folks that 
are coming back after a year or a year and a half or two years 
in a very difficult, exciting assignment, how do they fit back 
into their regular job structure? Is it working well or is 
there a little bit of struggle getting them back into the 
routine of things when they come home?
    Mr. Ward. Maybe I will start.
    As I said, you weren't here, I brought four veterans of the 
PRTs with me this afternoon, and these are four officers that 
are now working in the Asia Near East bureau at USAID.
    And I would say they fit in pretty well. But it is--some 
have now taken other foreign service assignments overseas. 
Others are working for USAID in Washington. Others have gone 
back into the private sector or if we borrowed them on a detail 
from another U.S. Government agency, they may have gone back to 
their agency.
    I think one thing I am very proud of that has happened in 
the few years now of experience that we have, is you asked, do 
we debrief them. We not only debrief them, we charge them with 
training the next crowd going out. We really tap their 
expertise as best we can, because they truly are the pioneers. 
And I think all credit for progress that we have made in 
improving the effectiveness of the PRTs goes to them, because 
these brave men and women have really written the book, they 
have written the doctrine on what works and doesn't work.
    And I am certain that if Deputy Secretary England were 
sitting here with us today, he would agree that the level of 
cooperation between the civilian advisers and the PRT 
commanders, certainly in Afghanistan and we are getting better 
and better all of the time in Iraq, where we have had a little 
less experience with this, is very much a function of people 
seeing a common goal and deciding let us put our glossaries 
behind us, let us learn each others' terminology and let us 
focus on what it is we are trying to do for the Afghan people, 
or the Iraqi people, and let us get it done. And I think 
everybody is very proud of how far we have come with that.
    I hope I don't sound like I am sugarcoating it. Because, 
yes, we could do better. We could do better training before 
they go. We could do better in terms of doctrine and making 
resources available. But I have seen so much progress in that 
in the last four years, that I wanted to share that with you.
    Dr. Gingrey. Thank you, Mr. Ward.
    Mr. Chairman, I don't know if Mr. Miller wanted to make a 
comment, but I see my time is expired. If we----
    Dr. Snyder. Go ahead, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman----
    Dr. Gingrey. Thank you, Mr. Chairman.
    Mr. Miller [continuing]. For the opportunity to respond to 
the question.
    I think that Mr. Ward's comments were certainly right on 
point, and I think that we would echo those comments.
    Our people come back enthused about their experience. I 
have had the opportunity and pleasure of talking to several of 
them who have come back, and so far I have had none of them 
report back to me that the experience wasn't as enriching to 
them as it was the experience and the information that they 
left with the Afghani people.
    They are doing some wonderful things, they are proud of it. 
These are great opportunities for the both the Afghani people 
and also for the Americans who get a chance to go over there 
and serve and contribute to this process.
    And I think also Mr. Ward was right on when he talked about 
the fact, this is relatively new enterprise for all of us. We 
are in the process of just within the last year or two starting 
to do this type of effort. We have never done it before. It is 
new turf. It is new territory. We are all learning from it. I 
think there are things we can do better. And I think that, you 
know, to the credit of the people that are involved in it, we 
are all trying to do better as we work through this process.
    Dr. Gingrey. Thank you, Mr. Miller.
    Mr. Swartz. Mr. Chairman, with your permission may I just 
add the Department of Justice's point of view on this as well.
    We have had experience over the last two decades in terms 
of deploying people overseas for rule of law positions and we 
have had people in more than 80 countries in that kind of role.
    But nonetheless, I would fully agree with what Mr. Ward and 
Mr. Miller have said. We make sure that everyone who comes back 
from the PRTs or other service in Iraq or Afghanistan has an 
opportunity and in fact an obligation to make presentations 
about what they have done in connection with their experience 
there on the rule of law side.
    And we also try and find and frequently find that they want 
to extend their deployments or serve overseas in other 
positions as well. And I also have a number of veterans from 
our overseas programs in Iraq and Afghanistan with us here 
today.
    Dr. Snyder. Thank you.
    Thank you, Dr. Gingrey.
    Mr. Swartz, would any of you like to introduce the people 
that are either still with us or were with us earlier? Some may 
have left during the break. If you would like to name they by 
name.
    Mr. Swartz. I would be delighted.
    Behind me, Doug Allen, who served in multiple positions--
Doug, do you want to stand up--including as a resident legal 
adviser.
    We have in the back Carl Trabilion, who was there in 2003 
for a police training program and helped create the foundation 
for all we have done.
    And Terry Bartlett, who did the same for the prison 
training program.
    You folks stand up.
    Dr. Snyder. They waved in the back there.
    Thank you.
    Mr. Swartz. I wanted you to see Terry's size.
    Dr. Snyder. Would you like to name your four people?
    Mr. Ward. Mr. Chairman, I am embarrassed to say that during 
the break I sent them back to the office to get to work.
    Dr. Snyder. That is all right. If you know their names and 
would like to mention them by name, you should feel free to do 
that.
    Mr. Ward. Well, I know Chris Runyon was here. Help me out. 
Monica McCleary was here. Kathleen Hunt, whose just come back 
from Iraq. Who was the fourth? Is that it. Okay. Thanks very 
much.
    Dr. Snyder. We will go a second round here if you want to 
start the five-minute clock again.
    Did you all get a chance to read Secretary England's 
letter? Was it distributed to you?
    You don't have to make a comment if you don't want to, but 
the gist of his letter is that DOD's civilian personnel need to 
be treated just the same as military personnel. And then this 
one paragraph that refers to non-DOD U.S. Government civilian 
personnel on the second page, ``The undersecretary of defense, 
personnel and readiness, under compelling circumstances, is 
authorized to approve additional eligibility for care in MTS 
for other U.S. Government civilian employees who become ill, 
contract diseases or are injured or wounded while forward 
deployed in support of U.S. military forces engaged in 
hostilities or other DOD civilian employees overseas.''
    Do any of you have any comments about that language?
    Mr. Ambassador.
    Ambassador Thomas. Sorry. I would like to say, as I said 
before, sir, the two cases we have had of traumatic brain 
injury, under compelling circumstances the military has 
responded and both have been treated at Walter Reed.
    For our foreign service and civil service personnel, they 
are treated in theatre. If someone comes back, the foreign 
service and civil service personnel have private insurance 
carriers who will treat them. But we also have an excellent 
medical staff who looks into all aspects of their health.
    Dr. Snyder. Anybody else?
    Mr. Miller. Mr. Chairman, I would just say that after the 
unfortunately incident that we had a couple of weeks ago with 
Mr. Stefani, the military took Mr. Stefani to a field hospital 
where they gave him the best available care they had.
    And, you know, we have nothing but compliments for the 
treatment that our people have gotten from the field commanders 
and the staff and the military personnel out in the field.
    Same thing when our people have been at post in Baghdad or 
Kabul. They take advantage of the Department of State services 
that are provided there.
    So I think that right now we certainly are complimentary in 
the services we have gotten from the other branches of 
government.
    Mr. Swartz. Mr. Chairman, we too have relied on Department 
of Defense or the Department of State in theatre for medical 
care.
    Dr. Snyder. I wanted to ask--I am sorry, Mr. McDonald. Go 
ahead.
    Mr. McDonald. Mr. Chairman, our experience has been 
similar, but I will say that I would like to understand better 
the language there. The word ``compelling'' is something that I 
would want to understand better. And ``authorization'' is 
something that I would want to understand better.
    But again, we have had excellent, excellent care, and 
excellent working relationship in the field.
    Dr. Snyder. In the spirit of collaboration, you all may 
want to collaborate and do your own follow-up letter with 
Secretary England, because it is obviously a very good faith 
effort on his part to clarify the policy.
    We have used the term ``volunteer'' several times, that 
your folks volunteer. I think you, Mr. Ward, used the phrase 
sign on to worldwide availability was, I think, your phrase.
    You all do have the ability to contractually require people 
when they take a certain job that is subject to availability. 
In fact, it is not a volunteering. It could be this is the job 
you took at the time.
    Would each of you discuss when we use the phrase 
``volunteer,'' is that an accurate statement?
    Mr. McDonald, we will start down here. Poor Ambassador 
Thomas has been getting the first question all afternoon.
    Discuss that issue of the availability of personnel and 
what we mean by volunteer.
    Mr. McDonald. For us, for the Treasury Department, 
volunteer means that it is their choice, whether they want to 
step forward and serve overseas, whether it is in Iraq, 
Afghanistan or other places in the international community.
    We don't have a foreign service per se, whether it is a 
foreign service of the kind that the State Department has, the 
Agricultural Department and USAID, whereby when someone becomes 
a member of that service, and I will be ready to stand 
corrected by my colleagues if I mischaracterize this or 
misstate it, but there is an expectation, and I think, even 
indeed a commitment to serve overseas, at least for a certain 
period of time, a certain part of one's career.
    The Treasury Department has overseas attaches. They are 
very small in number. Currently we have eight. And we have a 
technical assistance program, as I have described in my written 
statement, that includes 55 resident advisers and about 70 
short-term intermittent advisers who go out from time to time.
    But these are individuals who go because they choose to. 
There is no obligation on the part of Treasury Department 
officials to serve overseas. That said, as I mentioned in my 
oral statement and indeed underlined, we have had very good 
success and seeing people step forward includes former deputy 
secretary of the Treasury, former assistant secretary of 
international affairs for the Treasury, the deputy general 
counsel, people at the staff level.
    So while volunteer for us means truly volunteer, the spirit 
of volunteerism has been extremely strong at Treasury and we--
--
    Dr. Snyder. Mr. Swartz.
    Mr. Swartz. Thank you, Mr. Chairman.
    The Department of Justice, as I mentioned earlier, has had 
a long set of programs deploying people overseas, but those are 
as well people who volunteered for that service. So turning 
first to the prosecutorial side of matters, we have individuals 
deployed overseas through our international affairs office. 
These are Federal prosecutors who are overseas for operational 
cooperation and liaison work.
    We also have more than 40 attorneys deployed overseas, 
Federal prosecutors, thanks to funding from the State 
Department, taken through international narcotics and law 
enforcement in rule of law capacity.
    In Iraq and Afghanistan in particular, those are definitely 
volunteers, the prosecutors we have over there. These are 
individuals who agreed to leave their current positions as 
prosecutors and be in those countries with a goal of trying to 
pursue the same type of rule of law work we are doing around 
the world.
    In the law enforcement context, the issue is I think 
similar with this difference, that many of the individuals who 
deployed overseas have volunteered to serve within specialized 
groups within the various Department of Justice law enforcement 
agencies, so that a number of these individuals would be 
country attaches for their organization through their 
international affairs offices or with specialized enforcement 
groups, such as the Special Operations Group of the United 
States Marshall Service.
    Dr. Snyder. Mr. Miller.
    Mr. Miller. Mr. Chairman, at USDA, as has been indicated, 
we do have foreign service officers. As a part of their 
contract, they do agree to serve overseas, but they have 
obviously opportunities to opine for which posting they would 
like to be assigned to.
    We have a special provision where we make available 
priority status for ongoing assignments for those folks who 
would like to opine and opt for an assignment in Iraq. I don't 
think we call it, we don't have a foreign service officer right 
now in Afghanistan. We serve that out of Pakistan.
    All the other folks that we have go are purely volunteers. 
I mean, even the foreign service officers that go to Iraq, as I 
have indicated, are volunteers. They opt for that assignment. 
But they do get priority status on going.
    The other civil service persons who apply from the other 
agencies like Natural Resource Conservation Service, Forestry 
Service or any other branches of the USDA that apply, they are 
purely volunteers, whether they apply directly to USDA or they 
apply through the State Department service.
    Dr. Snyder. Mr. Ward.
    Mr. Ward. Mr. Chairman, we had a wake up call about three 
years ago. I remember it very well. We put out our worldwide 
bid list. It included a lot more positions in Iraq and 
Afghanistan than we had had before, and we got very few 
bidders. And we came very close, I mean, to be very technical, 
like, you know, that close, to forced placement, telling 
officers, reminding officers that when they joined the foreign 
service, they signed a statement that they would be available 
for worldwide and that we were going to have to call them on 
that.
    But we decided that we would try one more time and increase 
the incentive package----
    Dr. Snyder. May I interrupt you Mr. Ward? Just to be clear, 
so you do have how many foreign service officers----
    Mr. Ward. We have 1,200.
    Dr. Snyder. You have 1,200. You have the authority. All 
1,200 of those sign an understanding that you do have that 
authority to send them to a place like Iraq or Afghanistan.
    Mr. Ward. That is correct, including me. I mean, I signed 
that, too.
    Dr. Snyder. Go ahead. Excuse me.
    Mr. Ward. So we decided to, as I said, really increase the 
incentive package and then make another effort to get those 
volunteers that everybody is talking about, people that would 
willingly bid on those jobs, and, knock on wood, it has worked 
since then. We have scaled-up the incentives. We have done a 
lot more in terms of just, you know, getting the word out, how 
important this is, making people that have served there 
available to talk to people so they understand what the real 
risks are, what the rewards are, and to date we have not gotten 
close again to having to force place people.
    Dr. Snyder. Ambassador Thomas, any comments?
    Ambassador Thomas. Yes, sir.
    We have been able to staff Iraq and Afghanistan strictly 
with officers who wanted to volunteer. We have very proud, and 
we salute them for their service.
    If, however, we would need to do direct assignments, the 
secretary has the authority to direct assignments.
    Dr. Snyder. I appreciate your indulgence, Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    Just one other quick question, and that is, my 
understanding is within DOD if you are an officer and you are 
sort of climbing up the ranks of leadership, there are certain 
basic kinds of assignments that look awfully good on your 
resume. You almost need to have them if you are going to, you 
know, maybe reach general officer rank or something like that.
    Are there any incentives like that, particularly within 
State, and maybe they are not as appropriate in some of the 
other agencies as much as State, but are there incentives that 
way, where the fact that you have done a couple of years in a 
hard assignment--obviously, the experience you get there is 
going to be unlike anything you would get anywhere else. Are 
there any incentives like that to try to encourage people to 
build that type of resume?
    Ambassador Thomas. Yes, sir.
    We are commissioned officers. We have boxes, as we call 
them informally, that we have to check in terms of language and 
assignments if you want to be promoted, and that includes 
service at hardship posts. Secretary Rice likes to refer to 
those of us who have served in hardship posts as her ``hell-
hole gang.'' Today, 67 percent of the foreign service are 
serving in hardship posts for worldwide, and we make sure that 
you have to do that to get promoted.
    Mr. Ward. ``Yes'' is the answer for USAID as well.
    When we assign officers to their next assignment, whether 
junior officers or senior officers, you know, with grey hair 
like me, one way we look out for those that have served in Iraq 
and Afghanistan, as well as Pakistan and the south and Sudan, 
is we take care of them first. We look at their bids and we 
promise them in black and white that if you served in one of 
those places, you are going to get one of your top three bids, 
and I am proud to say that I think, with only one exception 
last year, they got one of their top two bids, every one of 
them.
    The point is that we take care of them first, and the rest 
of the bidders, those serving in other counties around the 
world, have to wait. And that has given opportunities for 
upward mobility to people that have served in these two places 
in particular that you are not sure they would have had 
otherwise if they were competing with a much bigger pool of 
officers.
    Mr. Akin. That is all I had.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you.
    I had a few other questions I wanted to ask you.
    I wanted to go back to this statement that Mr. Miller and 
Mr. Swartz and I were talking about, the quote I was picking on 
you on in your written statements. Which it is a good quote. I 
mean, there is nothing wrong with it. I mean, your staff 
obviously recognized good language and, you know--the second 
sentence is about the Civilian Reserve Corps that you all 
discussed.
    It is the first sentence I want to talk about, because the 
second sentence says that we can also call on the civilian 
reserve corps, but in the first sentence is something you are 
going to do apart from that civilian reserve corps, which it 
says, ``To improve our ability to respond to overseas 
challenges, provide the personnel expertise needed will require 
that we increase our numbers of available, trained and 
deployable personnel and that we support them with a structure 
in Washington that conducts planning and coordination.''
    Then it goes on and says, ``We also would benefit from a 
Civilian Reserve Corps.''
    What does the--I will ask Mr. Swartz and Mr. Miller first 
and then comments from the other three of you. Apparently the 
Department of Justice and the Department of Agriculture and the 
National Security Council agree with this. What should this 
structure--what does this structure--this is what some of us 
are trying to get at. What should the structure be that we 
don't have now?
    Mr. Swartz.
    Mr. Swartz. Mr. Chairman, that is a reference to the 
civilian--excuse me, the State Reconstruction and Stability 
Operation itself. As I believe Ambassador Thomas mentioned, or 
perhaps Mr. Ward, the notion is that there would not only be a 
Civilian Reserve Corps, but a structure above that consisting 
of the active response corps that would itself be the 
coordinating mechanism. That is, we would have an augmented 
number of personnel in our various agencies that could address 
and be available to address those kinds of issues, but would be 
working as well both in terms of coordinating activities ahead 
of time and working to plan how the civilian reserve corps 
would be deployed.
    So the notion is not simply that there be a reserve corps 
to draw upon----
    Dr. Snyder. Right.
    Mr. Swartz [continuing]. But that there be a structure with 
the State Reconstruction and Stability Office providing the 
overall structure, but the government agencies involved having 
augmented personnel and differing responsibilities according to 
the task.
    Dr. Snyder. Now, did you adopt that statement, that that 
structure is something different than what we have now?
    Mr. Swartz. Well, it would be the reconstruction and 
stability operation, where we thought that is where we do have 
the outlines of what that structure would look like, as 
Ambassador Thomas mentioned, in legislation.
    Dr. Snyder. But it is still a work in progress, though.
    Mr. Swartz. The office is a work in progress. We give 
actually detailed personnel from the Department of Justice to 
that office because we believe that it is a valid way, in fact 
a very important way, of trying to put in place a structure for 
the future of these types of operations.
    Dr. Snyder. Mr. Miller, did you have any comments?
    Mr. Miller. I was just going to say that I was told by my 
staff during the break that during the break, NSC inserted that 
when our statements were circulated through NSC for clearance, 
that that is where that language was added to our statement. We 
didn't come up with it on our own. It was added for us during 
that clearance process.
    But the point that has been made already by both Mr. Thomas 
and Mr. Swartz, that this structure that is envisioned for the 
future, having a standby reserve corps, all of those things we 
talked about earlier, is certainly something we would support. 
We have been asked to detail someone to the secretariat who 
will be working on this as well at the State Department and we 
look forward to that. We think it is the most efficient way to, 
rather than duplicate that activity in every one of the 
agencies, it makes a lot more sense to have it centralized and 
coordinated in one place, and we think the Department of State 
is the best place to have that.
    Dr. Snyder. I asked the former secretary of state some 
months ago about what this person thought interagency reform 
should occur, and the response was, we don't need interagency 
reform, we just need a National Security Council that functions 
properly. Which is interesting to me, but I don't know if that 
is right or not.
    I wanted to ask a couple of detailed questions. Let us see, 
who was it that talked about--Mr. Ward--the aging workforce. 
You mentioned you and other potential retirees.
    Does there need to be a congressional response to this? 
What should be the congressional response to your concern about 
the depletion in the numbers of people? Are you not having the 
numbers of people interested in USAID, or are you concerned 
that you will have people there but your force will go from 
being a very experienced force to a very junior force?
    Mr. Ward. The numbers are pretty stark, Mr. Chairman.
    Dr. Snyder. That is what I saw in your statement, yes.
    Mr. Ward. Yes, if you look at the number of foreign service 
officers with USAID back when I was in high school, say back in 
the early 1970's, it was, I don't know, 15,000 or 16,000, ten 
times our size today. Now, I am not saying we have to be that 
large again. But as our leadership looks at the challenge of 
responding to needs for surges and the ability to help out with 
what Ambassador Herbst is trying to put together, in terms of 
this new conflict and this new stabilization office. I mean, a 
lot of those officers are going to come from USAID foreign 
service. These are not separate.
    We are concerned, and so they are looking at a number of 
ways to solve the problem. The good news is that, and I 
mentioned this in my oral remarks, when I go out and talk to 
young people and when I look at the numbers of applications we 
get for opportunities in the foreign service with USAID, the 
world in which we work is not scaring young people away. That 
is very encouraging.
    We need the resources to hire more of them, and that is 
what our bosses are looking at now, is, you know, how to better 
get those resources or make some adjustments within our own 
budget to accommodate that.
    Dr. Snyder. Mr. Akin, you want me to finish my questions?
    Mr. Akin. Sure, go ahead.
    Dr. Snyder. Mr. Swartz, I had two questions for you. One is 
related to your statement in which you have kind of a range of 
assignments to these combat zones. Some are 90 days, some are 
120 days. You certainly have people that stay a year or two. 
But I think it was maybe the DEA folks that maybe have 120-day 
turnovers. That is a fairly--I am sure it seems like to 
somebody who hasn't had to spend, you know, 3 days in Iraq let 
alone 3 months or 15 or 20 months, but in terms of the kind of 
work that they are doing, that is a fairly quick turnover. Has 
that been an issue? I suspect the longer the rotation, the less 
interest in it. but has that worked out relatively well, that 
120 days, or does it seem there is a lot of catch up with new 
people coming onboard?
    Mr. Swartz. Mr. Chairman, I think it has worked from an 
operational point of view, and I should say that in both 
countries the law enforcement agencies particularly, it depends 
on the nature of the task, but it may have a country attache 
who is there for a year or longer. May have several people in 
that regard that form the backbone, if you will, of the liaison 
relationship, so that if the FBI has personnel in both 
countries, the DEA has a country attache team in Afghanistan 
that is there long-term.
    The reason for the deployments is, it can work that way, is 
largely because they are there for specific law enforcement 
purposes, oftentimes operational matters, and oftentimes for a 
number of these law enforcement agencies, teams are rotating 
back in and out, so it is not a new group of people every time. 
Some people volunteer to return. That is not an uncommon matter 
to see.
    And it is also I think fair to say, it reflects the fact 
that these people have important law enforcement missions back 
in the United States or elsewhere worldwide. These are 
oftentimes specialized teams of counterterrorism, counter-
narcotics experts, so they may have----
    Dr. Snyder. Overseas experience.
    Mr. Swartz [continuing]. And they have ongoing case 
responsibilities there. But we find that the differing 
deployments work according to the agency and we have let the 
law enforcement agencies make those kind of operational 
decisions.
    Dr. Snyder. I wanted to ask one question to you, Mr. 
Swartz, mainly because of your legal background, but you may 
choose to defer on it today. The issue of the Federal Tort 
Claims Act, and I think I want to maybe not address this as to 
a war zone situation, but when we have civilian personnel of 
the United States government that are overseas, and let us 
suppose they are seen by a U.S. Government care doctor or nurse 
or whatever, and feel like they were not--they or a family 
member were not properly treated, is it your opinion that the 
remedy is appropriate at this time, or do we have some 
cloudiness in the current state of Federal tort law.
    Mr. Swartz. Mr. Chairman, with your permission, I would be 
glad to take that question back to my----
    Dr. Snyder. Why don't you take that for the record.
    Mr. Swartz [continuing]. Civil colleagues at the Department 
of Justice, and we will certainly get you an answer on it.
    Dr. Snyder. That will be fine.
    Mr. Swartz. And may I also mention two other members of my 
team who served in Iraq? Michael Jeffroy, who served in the 
Marines there, and John Uler, who is both a Marine and also 
served in Iraq with the Department of State as well.
    Dr. Snyder. Thank you.
    And then, I just want to give any of you any comments you 
want to make, because Mr. Akin and I have been tossing this 
around for some time, and some of you alluded to it, but any 
final comments that you may want to make about this issue that 
has been out in the press, that there has been some discontent 
on the part of the Department of Defense and the military with 
regard to the ability of the civilian positions to get filled 
in Iraq and Afghanistan.
    Do you feel that was fair or unfair? Have we caught up? Do 
we still have a ways to go?
    Mr. Ward, you acknowledged that three years ago we had a 
problem. Do you feel like you have caught up? Or maybe you 
don't want to comment.
    Does anyone have any comment on that issue?
    Ambassador Thomas.
    Ambassador Thomas. Sir, I would like to say that every year 
we have filled our positions with volunteers in Iraq and 
Afghanistan. We expect that we will be able to do that again.
    I don't know where this urban legend, if it is, has come, 
that we have been unable to fill positions, but the State 
Department has, through foreign service, civil service and 
contractors filled positions that Ambassador Crocker, General 
Petraeus and their predecessors have requested of us.
    With me I have Barbara Stevenson, who was our PRT 
specialist working on this every day at State and throughout 
the interagency process.
    Mr. Ward. I would just add to that, with all due respect to 
our colleagues at the Pentagon who may have said that, the 
requirements are set by an interagency group that includes the 
military. And we, as Ambassador Thomas has said, we have met 
those.
    Now, we sometimes perhaps were not as quick as they want us 
to be because we have to get security clearances for people if 
we are hiring them from the outside for a particular expertise, 
or there may be a health issue, but we are up to date.
    And the other point that I would make, which I also make in 
my written testimony, is I don't believe that the answer is 
necessarily send a whole lot more civilian officers over there. 
If it were in a dangerous environment, it is not necessarily a 
good thing to have a whole bunch of civilian officers inside 
Embassy Kabul or inside Embassy Baghdad or any PRTs where it is 
not safe for them to get out and do their job.
    Dr. Snyder. I think the issue though is once the slots have 
been determined--you know, I understand what you are saying.
    Anyone else have any comments?
    Mr. Swartz. Mr. Chairman, from the law enforcement side, 
the Department of Justice believes it has met the requirements 
that have been both suggested and has gone beyond the case of 
law enforcement agencies that have their own missions to 
perform in these countries on counterterrorism and counter-
narcotics. Certainly as our roles have expanded on the rule of 
law side, with regard to assisting the United States attorneys 
or other Federal prosecutors, we have tried to increase our 
recruiting process to meet the additional needs, for instance 
with law and order task force or taking on the rule of law 
coordination responsibility.
    We now have six on the ground. We expect to have eight by 
the end of November and decrease the numbers thereafter.
    Dr. Snyder. I think Ambassador Thomas, just in closing, I 
don't think we need to consider that an urban legend. I mean, 
Secretary Gates has made some public statements expressing some 
frustration about not having civilian side slots all filled.
    I think part of the confusion has been distinguishing 
between State Department foreign service officers and other 
civilian personnel. I think that may be part of it.
    I also think that part of it has come from the first report 
I think of the special inspector general for the reconstruction 
of Iraq. And Ginger Cruse sitting in that chair testified here 
several weeks ago that I believe it was only 68 percent of the 
civilian personnel had been identified that are going to fill 
in these slots, identified by the end of this year.
    Well, she may be wrong, and we will have other 
opportunities to deal with the special inspector general for 
the reconstruction of Iraq, but that is not urban legend. That 
is somebody doing some counting whose conclusions are different 
than what you all are telling us today, so----
    Ambassador Thomas. Sir, with all due respect, our season, 
our Iraq bidding season begins now. We are just starting to 
fill positions for 2008 before----
    Dr. Snyder. You are talking about foreign service officers?
    Ambassador Thomas. Foreign service officers.
    Dr. Snyder. Foreign service officers.
    Ambassador Thomas. Yes, sir, and civil service. We also 
hire contractors. But we, the State Department, has filled 
these positions, and all I can say is maybe the numbers, and I 
do not know Ms. Cruse, and I did not know of her testimony, we 
are at 70 percent today of the people that we need for 2008. 
Our bidding season in which people can volunteer for Iraq, 
Afghanistan and other posts is still going on and has not 
closed yet.
    Dr. Snyder. Mr. Akin, do you have anything further?
    We appreciate you all being with us today, and you should 
feel free to, if you have anything that you want to submit to 
the record, take this as an open invitation to make any 
additional comments you want to make.
    We are adjourned.
    [Whereupon, at 4:18 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                            October 16, 2007

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 16, 2007

=======================================================================



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            October 16, 2007

=======================================================================



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            October 16, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

Iraq

    Dr. Snyder. 1. Please provide the following information regarding 
the workforce planning to staff all the different types of PRTs in Iraq 
and Afghanistan:
    a. As of this date, what it the total number of non-DOD civilian 
personnel required for all the different types of PRTs in Iraq and 
Afghanistan?
    Ambassador Thomas. Approximate 400.
    Dr. Snyder. b. What skills and experience are needed for each of 
these positions? Please include existing and currently planned PRTs in 
this summary. Please also count the non-DOD civilian agency positions 
that are or will be temporarily filled by DOD (military and civilian 
personnel.
    Ambassador Thomas. The skills and experience needed vary by 
position. In addition to core teams, listed below, all teams have a 
complement of technical specialists, the composition of which is based 
on the needs of their particular province or area of operation. Core 
teams are composed of the following:

      1. Team Leaders: Senior DOS FSOs
      2. Deputy Team Leaders: Usually military officers
      3. Senior Development Specialists: USAID FSOs
      4. Civil Affairs Officers: Military officers
      5. Bicultural Bilingual Advisors: DOD contractors

    Specialists: All specialist position descriptions are posted on the 
USAJobs website and can be viewed there. These include: business 
development, public health, public diplomacy, industrial specialists 
(including construction, electricity, and oil and gas), urban planning, 
city management, cultural heritage, governance, rule of law, and budget 
advisors as well as provincial program managers.
    Dr. Snyder. c. What is the current schedule (dates and numbers of 
positions) to fill all of these non-DOD civilian PRT positions, 
including positions that have already been filled and those filled or 
to be filled temporarily by DOD personnel? Please include the schedule 
to replace all the DOD personnel temporarily assigned to civilian 
agency PRT positions with non-DOD civilian personnel (Foreign Service 
Officers, civil servants, contractors).
    Ambassador Thomas. The 99 DOD-provided specialists are due to be 
replaced in accordance with an agreement on the backfill process 
reached between DOS and DOD in October 2007. This agreement calls for 
replacement on a rolling basis from November 2007 through August 2008. 
The DOD specialists arrived in roughly four groups beginning in March 
2007, with the last arriving in October 2007. All 99 will depart on or 
before their tenth month of service in accordance with the backfill 
agreement of October 2007. It should be noted that the plan has always 
been to replace these specialists with DOS Executive Order 3161 
appointments. USAJobs is the primary means of recruiting and hiring 
these individuals.
    Dr. Snyder. d. How many civilian agency PRT positions are currently 
filled by DOD personnel?
    Ambassador Thomas. As of 16 October 2007, the 99th and last DOD 
specialist had just arrived. As of January 3, 2008, 92 DOD specialists 
are still in theater.
    Dr. Snyder. e. How many are currently filled by non-DOD civilian 
agency personnel, broken out by status (Foreign Service Officers, civil 
servants, contractors) and required skills and experience?
    Ambassador Thomas. The following chart provides the breakdown of 
staffing levels as of December 31, 2007 by individual agencies which 
have contributed personnel.

 
----------------------------------------------------------------------------------------------------------------
                                                      DOD      DOS *     USAID **     USDA      DOJ      Total
----------------------------------------------------------------------------------------------------------------
Agency
Totals                                                 140       168           81        16        6        411
----------------------------------------------------------------------------------------------------------------
* DOS includes 70 FSOs, 73 Executive Order 3161 appointments, 12 contractors and 13 from other DOS elements.
** USAID includes 26 FSOs and 59 contractors.

    Dr. Snyder. f. When all currently planned non-DOD civilian 
personnel are finally filled, how many will be filled by Foreign 
Service Officers, by civil servants, and by contractors?
    Ambassador Thomas. As noted above, the majority of these positions 
will be filled by Executive Order 3161 appointments to federal service. 
The primary means of recruiting and hiring these specialists is 
USAJobs. In addition, USDA, DOJ, DOC and other federal agencies 
continue to offer detailed employees for many of these positions. A 
small number will be DOS contractors.

Afghanistan

    Dr. Snyder. 1. Please provide the following information regarding 
the workforce planning to staff all various types of PRTs:
    a. As of this date, what is to total number of non-DOD civilian 
personnel required for all different types of PRTs in Iraq and 
Afghanistan?
    Ambassador Thomas. Afghanistan only has one type of Provincial 
Reconstruction Team (PRT). There are 58 non-DOD civilian personnel at 
PRTs including NATO HEADQUARTERS and Regional Command Centers: 24 
State, 28 USAID and six Department of Agriculture (USDA).
    Dr. Snyder. b. What skills and experience are needed for each of 
these positions? Please include existing and currently planned PRTs in 
this summary. Please also count the non-DOD civilian agency PRT 
positions that are or will be temporarily filled by DOD (military and 
civilian personnel).
    Ambassador Thomas. No civilian PRT positions in Afghanistan are 
filled by DOD personnel. State Department PRT positions are filled by 
experienced Foreign Service Officers from any of the five cones, 
political, economic, consular, management, and public diplomacy at a 
rank roughly equivalent to the PRT Commanding Officer or Brigade 
Commander at Regional Commands. The ability to speak the language of 
the host nation at non-US led PRTs is also considered in the selection 
process as are other factors such as prior military experience that 
might be relevant. USAID looks for people with international 
development and program management experience, with prior USAID 
experience and work in conflict situations. Experience working within 
the USG interagency structure and/or working with the military is 
strongly preferred, as is prior experience in Afghanistan. Staff must 
have the interpersonal, consensus-building and teamwork skills required 
to establish and maintain strong contacts with counterparts both inside 
and outside of USAID, and to effectively explain USAID program 
policies, objectives and procedures. Additional criteria include the 
ability to work independently, communicate effectively, exercise sound 
judgment and innovation while operating in a challenging environment, 
and work calmly, tactfully, and effectively under pressure.
    In addition to cross cultural skills, USDA advisors have technical 
skills in one or more of the following areas: dryland agriculture, 
especially improvement of wheat yields and crop diversification; 
production and processing of horticultural crops, especially dried 
fruit and nuts, fresh melons, pomegranates, and grapes; improving 
irrigation and farm water use efficiency and storage; tree production, 
reforestation, re-vegetation; improving livestock health and animal 
production (sheep, goats, cattle, or poultry); agricultural extension; 
and engineering for a variety of agricultural needs.
    Dr. Snyder. c. What is the current schedule (dates and number of 
positions) to fill all of these non-DOD civilian PRT positions, 
including positions that have already been filled and those filled or 
to be filled temporarily by DOD personnel? Please include the schedule 
to replace all the DOD personnel temporarily assigned to civilian 
agency PRT positions with non-DOD civilian personnel (Foreign Service 
Officers, civil servants, contractors).
    Ambassador Thomas. All Department of State PRT positions but one 
are currently filled. The unfilled position is due to a medical 
condition of the incoming officer. All State PRT positions in 
Afghanistan are 12 month assignments and are filled through the regular 
Foreign Service selection process. The selection process for the Summer 
2008 and Summer 2009 (via language training) rotation has just begun. 
USAID has 28 total positions: 20 Field Program Officers (Field Program 
Officers) assigned at the PRTs and 8 Development Advisors (DevAds) that 
are assigned to Regional Command, Task Forces as well as NATO 
Headquarters. Of the 20 Field Program Officer positions, we currently 
have three vacancies, which are expected to be filled by mid-February. 
A twenty-first Field Program Officer position is being established to 
staff the new Czech PRT in Logar which is scheduled to start operations 
in early 2008. Of the eight Development Advisors, we have one vacancy 
and are currently recruiting to fill it. USAID is also hiring Afghan 
project specialists to work with the Field Program Officers at the 
PRTs--five are on board to date, 10 are in the recruitment stage. USAID 
PRT assignments, whether career Foreign Service Officers, or non-career 
officers (also known as Personal Service Contractors) are a year long 
in duration. Both career and non-career officers often extend beyond 
the one-year cycle (approximately 60%). Career officers, like the State 
Department, are selected through the Foreign Service assignment 
process, while non-career officers are recruited in cycles, arriving at 
Post incrementally as their security and medical clearances are 
received. USDA plans to provide 12 advisors to serve at US-led PRTs in 
Afghanistan by February 2008, plus one coordinator in Kabul.
    Dr. Snyder. d. How many civilian agency PRT positions are currently 
filled by DOD personnel?
    Ambassador Thomas. None in Afghanistan.
    Dr. Snyder. e. How many are currently filled by non-DOD civilian 
agency personnel, broken out by status (Foreign Service Officers, civil 
servants, contractors) and required skills and experience?
    Ambassador Thomas. See also answer 1e. All civilian agency PRT 
positions in Afghanistan fall under the NATO umbrella. State, USAID and 
Department of Agriculture officers are placed at the PRTs at the 
request of the country staffing the PRT. All 11 US-led PRTs have State 
Department employees (10 Foreign Service Officers and one civil 
servant). Nine of the 11 non-US led PRTs requested and are staffed with 
State Foreign Service Officers. All State Department PRT positions are 
filled through and meet the Foreign Service selection process.
    Four PRTs have not requested a USAID representative, Kunduz 
(Germany lead), Badghis (Spanish lead), Wardak (Turkey lead) and 
Maimana (Norway lead). USAID has positions at 20 of the 25 current 
PRTs, Regional Command Centers and NATO Headquarters. USAID is 
establishing a position for the Czech-led PRT in Logar in early 2008 at 
their request. USDA will provide 12 career civil servants to staff US-
led PRTs plus one civil service coordinator.
    Dr. Snyder. f. When all currently planned non-DOD civilian agency 
PRT positions are finally filled, how many will be filled by Foreign 
Service Officers, by civilian servants, and by contractors?
    Ambassador Thomas. All but one of the 29 Department of State PRT 
positions are currently filled (28 Foreign Service Officers and one 
civil servant). This number includes State PRT officers at NATO 
HEADQUARTERS and Regional Command Centers and Embassy Kabul. The one 
vacancy is due to medical reasons.
    USAID has 28 total positions that are assigned to the PRTs, 
Regional Command Centers, the Task Forces as well as NATO Headquarters. 
Of these, 12 are currently career USAID Foreign Service positions and 
16 are non-career personal service contractors positions. USAID is in 
the process of moving towards more career Foreign Service positions.
    Dr. Snyder. You testified that the State Department has filled all 
its FSO slots in Iraq and Afghanistan. Please clarify this statement. 
Didn't Secretary Rice ask DOD to fill civilian-designated slots with 
DOD personnel temporarily for 2007 and into 2008? Were the slots filled 
by DOD personnel ones that would not typically be filled by FSOs?
    Ambassador Thomas. Foreign Service Officer and civilian specialist 
staffing are two separate but complementary processes. DOD provided 99 
specialists with expertise in business development, public health, city 
planning, agricultural development, etc., to Provincial Reconstruction 
Teams (PRTs) and embedded-PRTs (ePRTs) from April 2007 to October 2007 
for one year assignments. We are now in the process of ``backfilling'' 
those DOD positions with Department of State temporary organization 
hires (3161s), detailees, and contractors. None of those 99 specialist 
positions were ever intended for Foreign Service Officers.
    The success of PRT civilian staffing represents an unprecedented 
level of interagency cooperation. Details from Departments of 
Agriculture, Justice, Treasury, Commerce, USAID, and other smaller 
agencies work together with Department of State personnel to provide 
interdisciplinary teams managed and led by the Department of State.

Afghanistan

    Dr. Snyder. Is the State Department or the Defense Department or 
both responsible for ensuring that the DOD personnel who are/were 
temporarily placed in civilian agencies PRT positions have the 
appropriate skills and experience for the assignment? Can you verify 
that they do/did.
    Ambassador Thomas. Afghanistan PRTs do not have nor have they had 
DOD personnel filling civilian agency PRT positions.

Iraq

    Dr. Snyder. Is the State Department or the Defense Department or 
both responsible for ensuring that the DOD personnel who are/were 
temporarily placed in civilian agency PRT positions have the 
appropriate skills and experience for the assignment? Can you verify 
that they do/did?
    Ambassador Thomas. DOS and DOD worked collaboratively to ensure 
that all of the DOD specialist personnel in PRTs have the appropriate 
skill sets and experience for their assignments.

Iraq

    Dr. Snyder. Were all federal agencies asked to provide personnel 
for civilian agency PRT positions before the Department of Defense was 
asked to temporarily fill these positions with DOD personnel? Please 
provide a list of civilian agencies that the State Department has 
solicited for volunteers (e.g., Health and Human Service, Education, 
Homeland Security, Transportation, etc.).
    Ambassador Thomas. Through an interagency, NSC-approved process, 
original planning called for DOD to temporarily staff these positions, 
as it was the government agency with both the dedicated resources and 
experience to move personnel quickly into a war zone. The focus of PRT 
staffing is not explicitly for all agencies to be represented at PRTs 
on a quota basis, but rather to secure the best personnel for each 
position. One of the key lessons learned from staffing the 10 original 
PRTs, prior to the surge, was that details from smaller federal 
agencies and entities was often burdensome for them, both in terms of 
funding, as well as staffing gaps. Shortly after the surge was 
announced, DOS launched an Interagency Staffing Sub-Group with 
representatives from several agencies, in order to manage this process. 
Thanks to funding provided in the FY07 Iraq supplemental, State also 
was able to offer reimbursable details for any agency willing to 
provide personnel. The DOS Iraq Transition Assistance Office (ITAO), 
the principal office charged with selection, hiring, and support of 
Executive Order 3161 appointments to the federal service for Iraq, also 
coordinates the deployment of detailees from other USG agencies. To 
date, the following agencies have provided employees on details to 
serve in PRTs: USDA--20, Commerce--3, DOD--3, White House--1, 
Transportation--1, DHS (FEMA)--1, and HHS (CDC)--1.

Afghanistan

    Dr. Snyder. Were all federal agencies asked to provide personnel 
for the civilian agency PRT positions before the Department of Defense 
was asked to temporarily fill these positions with DOD personnel? 
Please provide a list of civilian agencies that the State Department 
has solicited for volunteers (e.g. Health and Human Services, 
Education, Homeland Security, Transportation, etc.).
    Ambassador Thomas. The Department of State has not requested any 
other federal agency, including DOD, to fill any PRT positions in 
Afghanistan.
    Dr. Snyder. Ambassador Satterfield has said that one reason the 
State Department was unable to initially fill all the civilian agency 
PRT positions was the delay in receiving funds that were appropriated 
in the FY07 Supplemental budget. Was there no other mechanism to fund 
civilians for these positions while waiting for passage of the FY07 
Supplemental budget? Did the State Department consider reprogramming 
funds from other activities?
    Ambassador Thomas. There was no other mechanism for funding 
additional personnel and there were not sufficient funds available that 
could be reprogrammed from other activities for that purpose.

Iraq

    Dr. Snyder. How are the military personnel who are temporarily 
filling these civilian PRT positions being funded?
    Ambassador Thomas. They are funded by DOD.

Afghanistan

    Dr. Snyder. How are the military personnel who are temporarily 
filling these civilian PRT positions being funded?
    Ambassador Thomas. There are no military personnel temporarily or 
otherwise filling any civilian PRT positions in Afghanistan.
    Dr. Snyder. You testified that the State Department filled 90% of 
its positions in Baghdad and PRTs in Iraq for 2007 with volunteers. 
What is the actual number of PRT vacancies for 2007 that the State 
Department filled?
    Ambassador Thomas. Pre-surge, i.e., prior to early spring 2007, we 
had 42 positions in the PRTs and 32 have been filled. We currently have 
80 positions and all have also been filled for the 2008 transfer 
season.
    Dr. Snyder. We have heard of at least one State Department person 
who did not volunteer to deploy on a PRT who was sent anyway. You 
testified that all State Department personnel deployed to PRTs were 
``volunteers.'' Is volunteer a term of art? Please clarify.
    Ambassador Thomas. Volunteer is not a term of art. We have a 
mechanism in place for directing assignments where no willing and 
qualified volunteers exist. We have not yet had to use that mechanism 
as all volunteers were just that. We are unaware of the case cited 
above.
    Dr. Snyder. You testified that Barbara Stephenson of the State 
Department is the specialist for PRTs. Please clarify: Is Barbara 
Stephenson the specialist for PRTs in Iraq? Who is the specialist for 
PRTs in Afghanistan?
    Ambassador Thomas. As Deputy Senior Advisor to the Secretary and 
Deputy Coordinator for Iraq at the State Department, Barbara Stephenson 
has played a lead role in designing and implementing the ``civilian 
surge,'' including a significant expansion of the PRT program.
    Sandra Ingram, an officer on the Afghanistan Desk, is responsible 
for coordinating the State Department's PRT efforts in Afghanistan.

Iraq

    Dr. Snyder. We have heard that extensive leaves authorized State 
Department personnel, while a great incentive, cause continuity and 
leadership challenges at some of the PRTs (Iraq and Afghanistan). What 
actions could mitigate these challenges?
    Ambassador Thomas. For Iraq: All teams have a Team Leader, a Deputy 
Team Leader, and Senior Development Specialists. In addition, many 
teams have more than one of their key specialists--such as governance 
advisors, city managers or rule of law advisors. As a result, coverage 
of critical tasks and projects is planned in advance of leaves for any 
key staff members. We have not heard of cases where leave for DOS team 
members has significantly impeded program progress.

Afghanistan

    Dr. Snyder. We have heard that extensive leaves authorized for 
State Department personnel, while a great incentive, cause continuity 
and leadership challenges at some of the PRTs (Iraq and Afghanistan). 
What actions could mitigate these challenges?
    Ambassador Thomas. The Department of State believes it has struck 
an acceptable balance between the needs of the service and its 
obligation to preserve and protect the health and well being of all its 
employees particularly our civilian officers serving in war zones. One 
way in which we mitigated personnel gaps in Afghanistan was by creating 
a rover PRT position to fill short term staffing gaps. The current 
rover incumbent has prior Afghanistan PRT experience, and has ably used 
his Italian language skills while filling in at the Italian-led NATO 
PRT in Heart, has served at PRT Fara ahd is currently spending 25 per 
cent of his time filling a gap as a liaison with the 173rd Airborne 
Brigade Combat Team.
    Dr. Snyder. Would the PRT veterans you brought to the hearing fill 
out our PRT survey? Would you widely distribute this survey to PRT 
personnel in Iraq and Afghanistan and the veterans who have returned?
    Ambassador Thomas. The Department of State has been working jointly 
with USAID to conduct a survey of employees who have served, or are 
actively serving, on PRTs. We would be happy to share the survey 
analysis results with the Committee upon their completion. It is our 
goal to continue improving PRT communication, as well as ensuring that 
PRTs are responsive to the political, security, and economic challenges 
in Iraq and Afghanistan.
    Dr. Snyder. Does the State Department or USDA have responsibility 
for filling the agricultural PRT advisor position made vacant by the 
tragic death of Tom Stefani? When do you expect a replacement to be 
deployed?
    Ambassador Thomas. The Department of Agriculture is responsible for 
filling all Agriculture PRT positions. USDA is in the process of hiring 
another person to fill the vacancy left by Tom Stefani's tragic death.
    Dr. Snyder. You testified that 20% of all State Department FSOs 
have deployed to Iraq or Afghanistan so far. SIGIR testified two days 
later that 40% of all FSOs have served in Iraq alone. Please clarify. 
What is the percentage of FSOs, broken out by organization of 
assignment, who have served in either Iraq or Afghanistan since 2001?
    Ambassador Thomas. Approximately 1200 FSOs, or just under 12%, of 
the Foreign Service has served in Iraq. Approximately 20% of the 
Foreign Service has served in Iraq or Afghanistan since 2001.
    Dr. Snyder. You testified that the State Department had a 
sufficient number of FSO volunteers to fill its slots in Iraq and 
Afghanistan. Mr. Ward testified that USAID FSOs did not initially 
volunteer in sufficient numbers until additional incentives for 
deployment were provided. Did Secretary Rice add incentives for FSOs at 
all agencies to deploy in larger numbers in order for the State 
Department to fill its FSO slots?
    Ambassador Thomas. Secretary Rice only has statutory authority over 
the benefit package afforded Department of State Foreign Service 
personnel. Other agencies with Foreign Service personnel often choose 
to match the benefit packages offered by the Department of State but 
are not under any statutory obligation to do so.
    Dr. Snyder. You testified that the State Department had 11,500 
employees to fill 267 posts worldwide. How many positions does this 
represent (at the 267 posts) and does this include Main State? What is 
the percentage of fills at Main State?
    Ambassador Thomas. The Department currently has 11,690 Foreign 
Service Positions. This includes 8,079 (69%) overseas and 3,611 (31%) 
domestic positions. Of the domestic positions, 2,520 are located in the 
DC Area. Seventy six percent of the DC area positions are currently 
filled.
    Dr. Snyder. Are there plans for and will Congress see a request to 
increase the number of FSOs?
    Ambassador Thomas. The Department is dealing with a deficit of mid-
level Foreign Service Generalists due to hiring shortages in the 1990s. 
The deficit is particularly acute at the FS-02 level where we have 210 
more positions, mostly in the Public Diplomacy and Management cones, 
than officers. While our planning models show that the overall mid-
level deficit could be eliminated by September 2010, there will likely 
still be a deficit of 75 02-level officers. To address this shortfall, 
the Department requested funding for 254 new positions in the FY 2008 
President's Budget to implement the Secretary's Transformational 
Diplomacy initiative. This request includes Foreign Service generalist 
and specialist positions, as well as the corresponding Civil Service 
positions which we see as a down payment for future needs.
    Dr. Snyder. You clearly articulated how State Department personnel 
get care for combat zone injuries and illnesses in theater and Germany. 
How do they get care once back in CONUS, and do they know they can 
apply for a waiver to get care at Military Treatment Facilities?
    Ambassador Thomas. The wounded and ill State Department patients 
who require care in the States receive their care from the private 
health care system. The few patients who tried the Military Treatment 
Facilities after returning to the United States did not elect to 
continue.
    Previous information shared with the Hill includes reference to the 
Federal Employee health insurance program AND the use of Worker's 
Compensation benefits through Department of Labor. The DOL issue is 
particularly sensitive because private insurance will not cover care 
for a work related injury or illness unless DOL has declined a claim. 
Dr. Brown mentioned at his last briefing that State employees are being 
advised of the DOL paperwork requirement during the Iraq outbrief 
process.
    Dr. Snyder. When is the three-layer response corps--Active Reserve 
Corps, Standby Reserve Corps and Civilian Reserve Corps--projected to 
be operational? Please provide any planning documents and directives. 
Which civilian agencies in the USG are involved?
    Ambassador Thomas. The Active and Standby Response Corps are 
already operational, although still modest in size. There are currently 
ten members of the Active Response Corps (ARC), all within the 
Department of State. They have been deployed to such places as Darfur, 
Lebanon, Afghanistan, Haiti, Chad, Liberia, Iraq, and Kosovo. For 
Fiscal Year 2008, the Administration is requesting funding to increase 
the ARC to 33 persons and to add staff positions in S/CRS to provide 
the necessary planning and deployment support for them.
    The Standby Response Corps (SRC) currently has almost 300 members, 
all of whom have been drawn from current or retired State Department 
personnel. Last year, one current Foreign Service Officer served in 
Darfur and another in Eastern Chad.
    Given the challenges we will face in the coming years, it is 
essential that the ARC and SRC expand not just in State but in USAID 
and other civilian agencies such as Justice, Commerce, Treasury, and 
Agriculture. We plan to expand the size and training requirements as 
resources allow.
    The Civilian Reserve Corps (CRC) has not yet been established. We 
appreciate Congress making available up to $50 million for the CRC in 
the FY 2007 supplemental appropriations (P.L. 110-28). This level of 
funding would allow us to recruit, hire, and train the first 500 CRC 
reservists and to pre-position equipment so that they are fully 
prepared to deploy. However, obligation of this funding is contingent 
upon the enactment of authorizing legislation. Senators Lugar and Biden 
and Congressmen Farr and Saxton have proposed such authorizing 
legislation (S. 613 and H.R. 1084, respectively). Enactment of these 
bills is an important priority for this Administration.
    Dr. Snyder. When were Human Resources and leadership at USAID first 
briefed on the three response corps systems? The testimony of Mr. Ward 
indicated he was briefed by Ambassador Herbst just one week before the 
hearing. When were the other participating USG agencies briefed, asked 
to participate?
    Ambassador Thomas. State Department Human Resources and USAID have 
been integrally involved in the development of the three response corps 
from the start. Perhaps Mr. Ward's testimony was referring to the 
latest briefing in this process, in which Ambassador Herbst met with 
all USAID Assistant Administrators on October 15 to update them on 
progress the interagency has made to build civilian response capacity.
    In developing the three-tiered response corps, S/CRS has drawn 
heavily upon the expertise of personnel detailed to it from across the 
federal government, including USAID, and from the S/CRS-led interagency 
working groups established to implement the President's Directive for 
management of stabilization and reconstruction operations (NSPD-44).
    These working groups were stood up in June 2006. More than twenty 
agencies and bureaus have participated, including USAID, the Office of 
the Director of National Intelligence, and the Departments of Defense, 
Homeland Security, Health and Human Services, Treasury, Justice, 
Commerce, and Agriculture, as well as a number of State Department 
bureaus including the Bureau of Human Resources. One of these working 
groups was devoted to the design and framework for the three tiers of 
civilian response capacity.
    In late April of this year, the Department formed an interagency 
task force that was charged with tackling remaining questions regarding 
the design of the Civilian Reserve Corps. The task force was led by S/
CRS, and participating organizations included USAID, the Departments of 
Justice, Agriculture, Treasury, Commerce, Health and Human Services, 
Homeland Security, and Defense, and four State Department bureaus--
Human Resources, Office of the Legal Adviser, International Narcotics 
and Law Enforcement, and S/CRS.
    Dr. Snyder. In answer to Dr. Gingrey's question about why S/CRS and 
the CRC are taking so long, you replied that the State Department was 
waiting for Congress to enact legislation. Please be more specific 
about what legislation is either pending or required?
    Ambassador Thomas. The State Department is committed to improving 
the U.S. Government's ability to respond to reconstruction and 
stabilization crises, and progress is being made in this area.
    We appreciate Congress making available up to $50 million for the 
Civilian Reserve Corps (CRC) in the FY 2007 supplemental appropriations 
act (P.L. 110-28). This level of funding will allow us to recruit, 
hire, and train the first 500 CRC reservists. It will also allow us to 
pre-position equipment so that they are fully prepared to deploy. 
However, obligation of this funding is contingent upon enactment of 
authorizing legislation.
    Both the House and Senate have proposed bills that would satisfy 
this requirement and strengthen the U.S. Government's ability to 
prepare for and respond to crises arising in weak and failed states. In 
the Senate, Senators Lugar and Biden have proposed S. 613, the 
Reconstruction and Stabilization Civilian Management Act of 2007. In 
the House, Representatives Farr and Saxton have proposed companion 
legislation, H.R. 1084. These bills would improve the State 
Department's capacity to provide civilian response and foreign 
assistance for reconstruction and stabilization, as well as providing 
the authorizing legislation required to obligate the supplemental 
funding made available for the CRC.
    Enactment of these bills is an important priority for this 
Administration.
    Dr. Snyder. What is the relationship between State/Coordinator for 
Reconstruction and Stabilization (S/CRS) and the regional bureaus? Who 
has the real authority and power and funding when it comes to structure 
and process to manage Reconstruction and Stability operations and 
implementation of NSPD-44?
    Ambassador Thomas. Under National Security Presidential Directive 
44 (NSPD-44), the President has vested in the Secretary of State the 
responsibility to coordinate and lead integrated United States 
Government efforts to prepare, plan for, and conduct reconstruction and 
stabilization activities. S/CRS has been charged by the Secretary with 
implementing this Directive. In carrying out this responsibility, S/CRS 
works closely with the regional bureaus as well as with other State 
Department bureaus and with other Departments and Agencies as 
appropriate.
    Within the Department of State, the Secretary determines which 
office will take the lead role in responding to any particular 
situation. Should a decision be made to activate the Interagency 
Management System for Reconstruction and Stabilization (IMS) to address 
a particular crisis, the Country Reconstruction and Stabilization Group 
(the Washington-based interagency policy coordination body for the 
situation) would be co-chaired by the Coordinator for Reconstruction 
and Stabilization, the Assistant Secretary of the relevant regional 
bureau, and an appropriate regional senior director from the National 
Security Council.
    With regard to the question of funding, the Department of State 
currently utilizes various resources to carry out reconstruction and 
stabilization operations, including reprogramming within existing 
assistance accounts, the supplemental appropriations process, and 
transfer authorities. In addition, in Fiscal Years 2006 and 2007, the 
Department of Defense transferred $110 million to the Department of 
State for reconstruction and stabilization activities under authorities 
granted in Section 1207 of the National Defense Authorization Act of 
2006.
    Dr. Snyder. What are your specific concerns for future staffing of 
assignments for non-DOD federal civilian employees in any combat zones? 
For example, will you be facing a significant reduction in qualified 
personnel due to an aging workforce? Do you anticipate difficulty in 
attracting suitable skilled and experienced volunteers for these 
positions? Are there laws or policies that restrict your ability to 
deploy personnel or deploy personnel involuntarily? What is your agency 
doing to mitigate these potential staffing problems?
    Ambassador Thomas. State Department personnel have always been 
ready and willing to serve in dangerous and unstable environments where 
their skills and expertise are needed. We do not anticipate a reduction 
in qualified Foreign Service personnel due to an aging workforce or an 
inability to attract personnel. The Foreign Service remains a highly 
competitive and sought-after career. Our attrition rate is one of the 
lowest in the U.S. Government. Currently, sixty-eighty percent of 
Foreign Service Officers are stationed overseas, with more than 700 
serving in unaccompanied positions at our most difficult posts. Since 
2003, over 1500 State Department personnel have served in Iraq alone. 
All 250 positions opening in summer 2008 in Iraq, including those in 
Baghdad and the Provincial Reconstruction Teams, have already been 
filled with volunteers. Nevertheless, should the need ever arise, the 
Secretary of State is authorized by the Foreign Service Act to assign 
Foreign Service personnel to such positions to ensure the Department's 
diplomats are best placed to address critical national security needs. 
We are continually evaluating how we might best support our employees 
serving in our most difficult posts--both during and after their 
assignments--and may, in the future, seek Congressional assistance.
    In our current FY 2008 budget, we have requested an additional 254 
positions, all critical to fulfilling the Department's mission. For 
example, it would expand the size of the State Department's Active 
Response Corps to 33. We are also working to build civilian capacity by 
creating a Civilian Reserve Corps, as called for by the President and 
the Secretary. A Civilian Reserve Corps would allow us to draw on the 
generosity and skills of the wider American public for stabilization 
and reconstruction missions. We welcome Congressional support for these 
initiatives.
    Dr. Snyder. What modifications, if any, to the current package of 
incentives, benefits, and medical care policies would increase the 
likelihood of attracting the best volunteers for these positions?
    Ambassador Thomas. Currently, more State Department officers serve 
in dangerous, unaccompanied positions than ever before in our history. 
The State Department is constantly reviewing and adapting its benefits, 
incentives, and services to ensure that they meet the needs of these 
brave men and women, and their families. Foreign and Civil Service 
Officers who serve in Iraq for instance are eligible for financial and 
non-monetary incentives as outlined in the Department's Iraq Service 
Recognition Package. This package includes unique benefits related to 
compensation, support for families, and additional rest and 
recuperation periods, as well as onward assignment preference and 
promotion consideration for Foreign Service Officers. We are 
continually evaluating how we might best support our employees who 
serve in our most difficult post--both during and after their tours--
and may, in the future, seek Congressional assistance.
    As the Department adapts to the shifting national security 
environment, we are looking forward to identify and address anticipated 
needs, such as through the development of an Active and Standby 
Response Corps, a Civilian Reserve Corps, and specialized training. 
With these new initiatives come additional requirements on the 
Department, and the Department's ability to meet those requirements 
would be strengthened by legislation. The Administration welcomes 
efforts by Congress that support the State Department's ability to 
build civilian capacity for work in stabilization and reconstruction 
environments.
    Senators Lugar and Biden and Representatives Farr and Saxton have 
proposed legislation (S. 613 and H.R. 1084, respectively) that would 
provide the Administration with key authorities to enable the 
Department to build the civilian capacity our country needs. Among the 
more important provisions, S. 613 includes a dual compensation waiver 
for federal retirees, which would be a useful incentive for recruitment 
into a Civilian Reserve Corps or the Standby Response Corps. The 
Administration supports this legislation and hopes Congress will enact 
it soon.
    Dr. Snyder. The Subcommittee has heard testimony that non-DOD 
federal civilian employees are currently receiving adequate medical 
care in Iraq and Afghanistan at military and embassy treatment 
facilities. The current DOD policy which states, ``The Under Secretary 
of Defense (Personnel and Readiness), under compelling reasons, is 
authorized to approve additional eligibility for [Military Treatment 
Facilities] for other U.S. Government civilian employees who become 
ill, contract diseases, or become injured or wounded while forward 
deployed in support of U.S. military forces engaged in hostilities, or 
other DOD civilian employees overseas.'' Are you satisfied with this 
policy?
    Ambassador Thomas. We have had many civilian employees with medical 
emergencies treated at Military Treatment Facilities in combat zones, 
and they have all received prompt and outstanding medical care.
    Dr. Snyder. There appears to be a large discrepancy between the 
number of Office Workers' Compensation Program claims filed under FECA 
by federal civilian employees who deployed to Iraq or Afghanistan for 
emotional stress disorders and the number of employees who report 
symptoms of these disorders. What is your organization doing to screen 
and survey your employees who have deployed to combat zones for Post-
Traumatic Stress Disorder and other mental health problems? What action 
is your organization taking to encourage reporting of issues and to 
ensure adequate care and education? How are you specifically dealing 
with the stigma associated with admission of mental health and stress 
disorders and employees' fears that such admission will have negative 
effects such as career discrimination, loss of clearance, etc.?
    Ambassador Thomas. All employees assigned to Iraq and Afghanistan 
are mandated to attend a High Stress Assignment Outbrief Program upon 
completion of their tour. This is held at the Foreign Service Institute 
and is done in a group format. The course is conducted jointly by the 
head of FSI's Transition Center and a psychiatrist from the Office of 
Medical Services (MED). This course was made mandatory precisely to 
avoid the problem of people avoiding it for fear that it would 
stigmatize them with a ``mental health'' label. Furthermore, if they 
prefer to have an individualized outbrief, whether for the convenience 
of scheduling or because they wish to bring up more personal matters in 
a private setting, they can do that instead. These courses are also 
available on a voluntary basis to any employee returning from any 
unaccompanied tour.
    At the Outbrief, employees, they are explicitly advised to self-
screen by educating them with these four steps:

      1.  They are given information about the more common mental 
health problems seen in people who serve at high stress posts, such as 
normal and self-limited (sub-clinical) stress reactions, Acute Stress 
Disorder, Post-traumatic Stress Disorder (PTSD), alcohol or other 
substance abuse, depression and other mood disorders, and marital 
problems. This information is based on self-reports from peers who 
attended previous outbriefs over the past three years; the anonymous 
survey that MED and the Family Liaison Office (FLO) conducted to which 
877 employees responded; and the medical literature on the subject.

      2.  They are then advised about signs and symptoms that indicate 
sufficient concern to warrant a professional consultation.

      3.  Clarification is offered about medical histories and the fact 
that seeking help for mental health issues in itself is never cause for 
an automatic change in medical or security clearances. An opaque 
boundary between MED and HR is well established, and an individual's 
medical history is never revealed to HR, although the employee's 
medical clearance could affect assignments as the purpose is to make 
sure that any needed medical care is available at the post of 
assignment.

      4.  They are advised how to contact mental health professionals 
either within the Department of State (both domestically and overseas) 
or privately, including a point of contact in HR for processing claims 
with OWCP. They are also informed that MED's Employee Consultation 
Services offers a bi-weekly support group in Washington for returnees 
from unaccompanied tours.

    Even before deployment these topics are introduced by staff from 
the Office of Mental Health Services for all attendees at the mandatory 
Foreign Affairs Counterterrorism Training (FACT) and PRT pre-deployment 
courses offered by Diplomatic Security. Our mental health provider in 
Iraq is designated to provide services solely to the Iraq mission and 
has back-up support available from our psychiatrist in Amman.
    MED is currently developing a Deployment Stress Management Program 
and will hire two to three more mental health specialists who will 
provide evaluation, support, and initial treatment for employees 
suffering from PTSD or other mental health problems upon return from 
unaccompanied tours.
    Dr. Snyder. You testified that you were briefed by Ambassador 
Herbst about the three response corps system--Active Reserve Corps, 
Standby Reserve Corps and Civilian Reserve Corps--just one week before 
the hearing. When was anyone else at USAID briefed earlier?
    Mr. Ward. In my comments, I was referring to a recent update 
briefing I received. USAID staff have worked closely with the 
Department of State's Office of the Coordinator for Reconstruction and 
Stabilization (S/CRS) from the beginning of this effort to develop the 
three response corps systems over the last three years, and has 
detailed staff to S/CRS to work on these efforts. USAID has also been 
involved in all major policy discussions at the leadership level.
    While the USAID Bureau for Democracy, Conflict and Humanitarian 
Assistance has been the main participant, this spring, Ambassador John 
Herbst met with USAID's Acting Administrator and with Agency Assistant 
Administrators to discuss progress on developing the Active and Standby 
Response Corps, as well as the Civilian Reserve Corps. This fall, he 
met with me as part of a series of briefings to update USAID regional 
Assistant Administrators, Deputy Assistant Administrators and staff 
from Agency bureaus.
    Dr. Snyder. You testified that ``PRT members have written the 
doctrine [after and during their deployments] and they know what 
works.'' Please provide the doctrine that they have written. If this 
was figurative, please clarify. Provide any doctrine that USAID may 
have in writing for PRT operations.
    Mr. Ward. When PRTs were first established in 2002, team members 
shared their insights into what worked best via e-mail and through in-
person briefings with outgoing and incoming Field Program Officers 
(FPOs). The lessons learned from these exchanges of information became 
the basis for a more formal training program that is now the vehicle 
for preparing new PRT employees prior to their assignments in the 
field.
    USAID is currently developing a comprehensive training program that 
will capture systematically the knowledge and experience of FPOs as 
well as those of officers assigned in Kabul and it will integrate that 
information into a larger pre-deployment training program for officers 
assigned to Afghanistan. Likewise, experienced-based training will also 
be incorporated into comprehensive training for PRT members deployed to 
Iraq.
    USAID is also participating in a 3-week pre-deployment training 
exercise at Ft. Bragg for PRT officers from USAID, State, USDA, and 
DOD. The exercise gives incoming officers the opportunity to discuss 
on-the-ground realities with Afghanistan-experienced officers as well 
as to participate in scenarios based on real experiences of PRT 
veterans. It also provides military officers with a better 
understanding of USG civilian agency roles in PRTs. Likewise, civilian 
agency participants are exposed to the military environment in which 
they will spend the next 12-18 months. In surveys completed after each 
training session, participants consistently cite the joint civilian-
military exercises as a critical part of the success of PRT operations.

Handbooks and Guidelines

    The International Security Assistance Force PRT Handbook is the 
primary written document governing PRTs. It has been endorsed by the 
ambassador-level PRT Executive Steering Committee (ESC) in Kabul, and 
is the product of more than four years of input from national 
(Afghanistan) and international (including USG, the UN, NATO) units. 
The Handbook outlines guiding principles and proven best practices that 
each PRT can draw upon in implementing a strategy for meeting the 
challenges of its area of operations.
    Dr. Snyder. Would the PRT veterans you brought to the hearing fill 
out our PRT surveys? Would you widely distribute this survey to serving 
PRT personnel and to the veterans who have returned?
    Mr. Ward. USAID is facilitating an interagency working group survey 
of PRT participants. We expect to have results of our survey analysis 
within the next several weeks and we will share them with the 
Committee.
    Since this survey process will be applied to each PRT cohort, for 
future surveys, USAID would like to work with the Committee to 
understand issues that are of paramount concern so that we can address 
them in our ongoing surveying.
    Dr. Snyder. Describe ``grantees'' who work on PRTs. What is the 
process for recruiting, selecting and deploying them?
    Mr. Ward. USAID issues public requests for proposals to fill 
contracts, grants, and cooperative agreements, often on a country-by-
country basis; USAID does not select implementing partners (contractors 
or grantees) at the PRT level.
    After a fair and open selection process, a contract/grant/
cooperative agreement is awarded. A Cognizant Technical Officer (CTO) 
provides day-to-day management of the program and works with the 
implementing partner to ensure that it meets USAID's requirements for 
performance.
    USAID utilizes various acquisition and assistance instruments to 
implement its activities. Contracts, grants, cooperative agreements and 
purchase orders are some of the instruments that are negotiated by 
USAID. These instruments provide commodities and technical assistance 
to support the attainment of the agency's objectives. USAID refers to 
contractors, grantees and cooperative agreement recipients collectively 
as ``implementing partners.'' Acquisition refers to obtaining goods and 
services, through various types of contracts, for the use or benefit of 
the Agency. Assistance refers to transferring funds (or other 
valuables) from USAID to another party to implement programs designed 
to contribute to the public good by furthering the objectives of the 
Foreign Assistance Act. USAID is required to comply with internal 
regulations and directives as well as Federal Government policies and 
regulations.
    Guidelines on our acquisition and assistance can be found on our 
website: http://www.usaid.gov/business/.

    Dr. Snyder. How do USAID personnel in the field interact with NGOs? 
Under what conditions would NGOs take over the work USAID does in the 
field?
    Mr. Ward. There are principally two modes of interaction between 
USAID personnel and its implementing partners (i.e., NGOs: U.S., 
international, local) in the field: (1) monitoring progress on a USAID-
funded project, (2) coordinating with projects not funded by USAID.
    USAID field staff provide oversight of contracts and grants under 
the management of a USAID implementing partner. This role includes both 
collaboration with the implementing partner to identifying project 
priorities and modes of implementation and oversight and assessment of 
progress made towards established goals and objectives.
    In cases where an NGO in Afghanistan or Iraq is not a USAID 
implementing partner, USAID field staff liaise with the organization to 
ensure coordination of effort in key sectors, such as health, 
education, local governance, and building institutional--local and 
state--capabilities for delivering services. USAID also works in this 
coordinated fashion with other donors, both foreign governments and 
international organizations. The information sharing provides useful 
local knowledge to the USAID Mission, and to the PRT. At the national 
level, there is regular interaction and coordination among the donor, 
military and NGO communities.
    At this point, there is no instance in which we can imagine an NGO 
taking over USAID's role as a PRT participant, which is inherently 
governmental.
    Dr. Snyder. Are there plans for and will Congress see a request to 
increase personnel for USAID? What is USAID doing about the ``graying'' 
of its workforce and looming retirement bulge/experience crisis?
    Mr. Ward. USAID's FY 2009 budget request is currently under 
development. Any proposed increase in personnel would be included in 
the annual budget request, submitted in February. Currently, human 
resource reforms continue at USAID as we look for ways to maximize our 
budget resources to increase the numbers and strengthen the training 
for our number one priority--our people.
    Analysis of the ``graying'' workforce at USAID shows that nearly 
45% of the workforce will be eligible to retire by 2011. This requires 
USAID to focus any new hiring on junior officers and to think 
creatively about maintaining access to senior-level talent to serve as 
mentors to junior and mid-level officers while they gain experience in 
the Agency. Expanded mentoring programs, virtual coaching arrangements 
with newly-retired officers, and retention bonuses are a number of 
avenues we are pursuing.
    Dr. Snyder. What are your specific concerns for future staffing of 
assignments for non-DOD federal civilian employees in any combat zone? 
For example, will you be facing a significant reduction in qualified 
personnel due to an aging workforce? Do you anticipate difficulty in 
attracting suitable skilled and experienced volunteers for these 
positions? Are there laws or policies that restrict your ability to 
deploy personnel or deploy personnel involuntarily? What is your agency 
doing to mitigate these potential staffing problems?
    Mr. Ward. Congress has been helpful in providing USAID with 
specific hiring flexibilities in addition to incentives that apply to 
all federal civilian personnel. These statutory provisions have 
assisted USAID in meeting its staffing requirements in critical 
countries and in combat zones.
    USAID does not believe that current laws restrict its ability to 
deploy personnel voluntarily or involuntarily to combat zones. There 
are policies such as requiring medical clearances or the designation of 
posts as ``unaccompanied'' that will necessarily affect USAID's ability 
to deploy employees into combat zones.
    The aging USAID workforce is a significant consideration in 
planning for ongoing placements in critical countries. In the immediate 
term, USAID plans to hire at attrition, which should enable sustained 
operations at current levels with qualified personnel. For the longer 
term, however, USAID must address the need to expand the pool of 
Foreign Service officers eligible for assignment in critical countries.
    Dr. Snyder. What modifications, if any, to the current package of 
incentives, benefits, and medical care policies would increase the 
likelihood of attracting the best volunteers for these positions?
    Mr. Ward. To date, USAID has been able to fill all of its direct 
hire foreign service positions with volunteers in both Iraq and 
Afghanistan, and also in the two other critical priority countries of 
Pakistan and Sudan.
    USAID is constantly reviewing its package of incentives and 
benefits and is prepared to make adjustments as information and events 
dictate. Federal regulations cover all civilian employees to ensure the 
comparability of incentives and benefits provided to those who serve on 
PRTs from USAID and from the Department of State and other agencies. 
USAID works in close consultation with State and other agencies to 
assess the need for and to implement modifications to its incentive 
package.
    The relatively small size of USAID and of its Foreign Service corps 
(1,200 personnel) and the retirement surge we will face in the coming 
years, means that without a significant increase in the number of 
foreign service officers in the workforce, USAID will face challenges 
in filling positions in critical priority countries. As demand remains 
high for personnel on annual rotations in Iraq and Afghanistan, and as 
we continue to deploy personnel to other critical countries and new, 
future locations, USAID's ability to attract volunteers to these 
positions will be affected by the depth of the employee pool from which 
we can draw.
    Dr. Snyder. The Subcommittee has heard testimony that non-DOD 
federal civilian employees are currently receiving adequate medical 
care in Iraq and Afghanistan at military and embassy treatment 
facilities. The current DOD policy which states: ``The Under Secretary 
of Defense (Personnel and Readiness), under compelling reasons, is 
authorized to approve additional eligibility for [Military Treatment 
Facilities] for other U.S. Government civilian employees who become 
ill, contract diseases, or become injured or wounded while forward 
deployed in support of U.S. military forces engaged in hostilities, or 
other DOD civilian employees overseas.'' Are you also satisfied with 
this policy?
    Mr. Ward. The USAID mission in Iraq is satisfied with the current 
policy for providing medical care to non-DOD federal civilian 
employees. As with other USAID missions worldwide, medical care for 
direct-hire and personal services contractor (PSC) employees is readily 
available through the US Embassy Health Unit. For severe illness or 
serious injuries requiring ``life, limb and eye'' support, USAID 
employees--including direct hires, PSCs, locally employed staff (LES) 
who suffer on-the-job injuries, and institutional contractors--have 
access to DOD medical facilities, which provide US-quality staff, 
treatments, medications, and equipment. In addition, USAID 
representatives on Provincial Reconstruction Teams and Embedded 
Provincial Reconstruction Teams also have access to DOD medical 
facilities in the field. In past instances where injuries or illness to 
USAID personnel required medical evacuations, DOD also provided 
``medevac'' assistance to USAID direct-hire staff on hospital planes 
once the patients had been stabilized.
    Dr. Snyder. There appears to be a large discrepancy between the 
number of Office of Workers' Compensation Program claims filed under 
FECA by federal civilian employees who deployed to Iraq and Afghanistan 
for emotional stress disorders and the number of employees who report 
symptoms of these disorders. What is your organization doing to screen 
and survey your employees who have deployed to combat zones for Post-
Traumatic Stress Disorder and other mental health problems? What action 
is your organization taking to encourage reporting of issues and to 
ensure adequate care and education? How are you specifically dealing 
with the stigma associated with admission of mental health and stress 
disorders and employees' fears that such admission will have negative 
effects such as career discrimination, loss of clearance, etc.?
    Mr. Ward. USAID has made a High Stress Assignment Outbrief 
mandatory for all employees after returning from serving in Iraq and 
Afghanistan, as well as from Pakistan and Sudan. This High Stress 
Outbrief is implemented by the Department of State's Transition Center 
and is offered at the National Foreign Affairs Training Center.
    While USAID acknowledges that not all returnees have taken the 
course, we are doing everything possible to ensure attendance. 
Likewise, in terms of fitness, returnees are encouraged to utilize the 
medical and mental health services available through the Agency and the 
Department of State. However, as the Sub-Committee's question implies, 
Foreign Service Officers are very sensitive about being `stigmatized' 
in any way that may affect their forward assignments and they are 
sometimes reluctant to report specific stress-related or other 
symptoms, particularly if they involve mental health. We will continue 
to identify means to require 100% participation, which should mitigate 
any concerns about ``stigma.''
    Dr. Snyder. How do USDA personnel in the field interact with NGOs? 
Under what conditions would NGOs take over the work USDA does on PRTs?
    Mr. Miller. In all cases, our PRT personnel seek to transfer skills 
to local entities both public and private, and USDA works with local 
and international NGOs where possible. The PRTs were designed as a 
platform for development in localities where instability precludes 
normal development to take place. Still, there are many areas where the 
security situation is such that few or no international NGOs are 
operating and local NGOs may have a security concern working directly 
with the U.S. Government.
    Dr. Snyder. Why will it take until the end of the year to get 13 
additional USDA personnel into Iraq given the President announced the 
``New Way Forward'' in January 2007?
    Mr. Miller. From the time of the initial request to deployment, it 
takes on average eight months to recruit, select, process medical and 
security clearances, train, place and deploy USDA employees for PRT 
assignments. In addition to the 18 agricultural advisors that USDA 
anticipates deploying to Iraq by the end of November, 2007, as part of 
the President's ``New Way Forward'', we are now recruiting for an 
additional 13 advisors to replace current Department of Defense 
advisors by June, 2008.
    Dr. Snyder. Did the NSC or anyone else add anything or subtract 
anything from your testimony besides the paragraph on the CRC on p. 2?
    Mr. Miller. The language suggested by NSC on CRC is the only insert 
received from colleagues who reviewed the testimony; the language 
reflected current policy of USDA and the Administration. Supporting 
federal civilian employees deployed to Iraq and Afghanistan requires 
coordination among USDA agencies and agencies throughout the Executive 
Branch.
    Dr. Snyder. Why don't USDA personnel deploying to Iraq attend the 
DOD training at Fort Bragg?
    Mr. Miller. The Department of Defense (DOD) is the lead Department 
in implementing the PRT program in Afghanistan. DOD has created and 
implements the training at Fort Bragg for military and civilian 
personnel deploying to Afghanistan; USDA employees being deployed to 
Afghanistan attend these training sessions. Department of State (DOS) 
is the lead Department implementing the PRT program in Iraq. USDA 
employees deploying to Iraq are required to attend the DOS's Foreign 
Affairs Counter Terrorism (FACT) training at the Foreign Service 
Institute (FSI).
    Dr. Snyder. Do the stateside organizations providing deployers get 
backfills for the year they are missing a person?
    Mr. Miller. USDA agencies can at their own discretion temporarily 
fill these positions until their employees resume their normal duties.
    Dr. Snyder. We have heard that the leaves of deployers sometimes 
conflict with continuity and mission. Have you heard about this 
challenge? What action could you take to mitigate it?
    Mr. Miller. In response to this issue, we have in certain instances 
and in coordination with the Department of State delayed deployments so 
that employees can complete mission critical assignments.
    Dr. Snyder. Your testimony says that each volunteer can return to 
their same salary and benefits. Will they return to the same job? What 
job will they be assigned upon their return?
    Mr. Miller. USDA employees return to the same position and duty 
station they held prior to deployment. This is guaranteed by the 
Secretary of Agriculture.
    Dr. Snyder. Will your currently deployed PRT personnel and PRT 
veterans fill out a PRT survey?
    Mr. Miller. We will provide the survey to them.
    Dr. Snyder. Does the USDA or DOS have responsibility for filling 
the agricultural PRT advisor position made vacant by the tragic death 
of Tom Stefani? When do you expect a replacement will be deployed?
    Mr. Miller. USDA is responsible and we anticipate having a 
replacement for Tom Stefani no later than February, 2008, when the next 
wave of advisors deploy to Afghanistan.
    Dr. Snyder. What are your specific concerns for future staffing of 
assignments for non-DOD federal civilian employees in any combat zone? 
For example, will you be facing a significant reduction in qualified 
personnel due to an aging workforce? Do you anticipate difficulty in 
attracting suitable skilled and experienced volunteers for these 
positions? Are there laws or policies that restrict your ability to 
deploy personnel or deploy personnel involuntarily? What is your agency 
doing to mitigate these potential staffing problems?
    Mr. Miller. Thus far, FAS has successfully recruited volunteers 
from within its ranks to serve in Foreign Service Officer (FSO) 
assignments in Iraq and Pakistan (which covers Afghanistan) and has 
also successfully recruited from across USDA to fill Provincial 
Reconstruction Team Advisor and Ministry Advisor positions in Iraq and 
Afghanistan. USDA employees volunteering for positions in Afghanistan 
and Iraq tend to represent those in the mid or late phase of their 
federal service.
    FAS assigns FSOs to positions overseas in consideration of the 
needs of the service, experience, language ability, etc., and the FAS 
Administrator makes all final assignment decisions and can invoke 
worldwide availability to fill a particular Foreign Service position.
    All other assignments are voluntary and are dependent upon a well 
qualified pool of candidates. To date, USDA has been pleased with and 
proud of the relatively large number of applications that have come 
from within the Department.
    In order to fill hardship assignments, FAS follows State 
Department-established differentials for danger and hardship as well as 
other compensation as is the case with the Iraq Service Recognition 
Package--Revised.
    Dr. Snyder. What modifications, if any, to the current package of 
incentives, benefits, and medical care policies would increase the 
likelihood of attracting the best volunteers for these positions?
    Mr. Miller. While there is no evidence that the current package 
hinders recruitment efforts, USDA does intend to provide re-entry 
counseling for employees, supervisors and family members through 
Employee Assistance Program provided services. USDA is also planning to 
formally recognize employees who have volunteered for these assignments 
at a special Secretary-level ceremony being planned for this spring. 
USDA follows State Department-established recognition packages. Should 
State Department modify their recognition packages, USDA would likely 
follow suit.
    Dr. Snyder. The Subcommittee has heard testimony that non-DOD 
federal civilian employees are currently receiving adequate medical 
care in Iraq and Afghanistan at military and embassy treatment 
facilities. The current DOD policy which states: ``The Under Secretary 
of Defense (Personnel and Readiness), under compelling reasons, is 
authorized to approve additional eligibility for [Military Treatment 
Facilities] for other U.S. Government civilian employees who become 
ill, contract diseases, or become injured or wounded while forward 
deployed in support of U.S. military forces engaged in hostilities, or 
other DOD civilian employees overseas.'' Are you also satisfied with 
this policy?
    Mr. Miller. We have been satisfied with the level of medical 
support provided by DOD and DOS. However, we would prefer to see the 
clause ``under compelling reasons'' removed. USDA would also like to 
see the policy strengthened by amending the language so that both 
physical and mental health care is explicitly authorized.
    Dr. Snyder. There appears to be a large discrepancy between the 
number of Office of Workers' Compensation Program claims filed under 
FECA \1\ by federal civilian employees who deployed to Iraq or 
Afghanistan for emotional stress disorders and the number of employees 
who report symptoms of these disorders. What is your organization doing 
to screen and survey your employees who have deployed to combat zones 
for Post-Traumatic Stress Disorder and other mental health problems? 
What action is your organization taking to encourage reporting of 
issues and to ensure adequate care and education? How are you 
specifically dealing with the stigma associated with admission of 
mental health and stress disorders and employees' fears that such 
admission will have negative effects such as career discrimination, 
loss of clearance, etc.?
---------------------------------------------------------------------------
    \1\ Federal Employees Compensation Act.
---------------------------------------------------------------------------
    Mr. Miller. USDA employees participate in the Department of State 
medical clearance process prior to final selection and deployment. USDA 
also plans to involve the USDA Employee Assistance Program in pre-
deployment orientation sessions.
    For those returning from conflict zones, USDA is drafting updated 
standard operating procedures (SOPs) to make available re-entry 
resources and support for the employees, their families and their 
supervisors. We are working with Department of State and the USDA 
Employee Assistance Program to draft these SOPS. We are advising recent 
returnees to attend the post-deployment stress reduction training that 
is mandatory for all DOS FSOs.
    USDA does not discriminate against employees who self-disclose 
mental health or emotional issues. USDA provides access to Employee 
Assistance Program to help employees deal with mental health and stress 
disorders.
    Dr. Snyder. Per your offer, please provide an opinion as to the 
sufficiency of the Federal Tort Claims Act, or other similar statutes, 
to support claims relevant to federal civilians deployed to Iraq or 
Afghanistan. For example, is it possible to sue a government doctor for 
malpractice if the event occurred overseas? What statutory changes 
would be required to allow for such claims?
    Mr. Swartz. The existing statutory remedies afford ample protection 
to Federal civilian employees who are injured in the course of their 
employment while deployed overseas. Just as Federal civilian employees 
who are injured in the course of their employment either in the United 
States or abroad are entitled to benefits under the Federal Employees 
Compensation Act (``FECA''), 5 U.S.C. Sec. Sec. 8101 et seq., so too 
are Federal civilian employees who may be injured by a Government 
doctor, either domestically or while deployed. FECA constitutes their 
exclusive remedy for any such injuries. See, e.g., Spinelli v. Goss, 
446 F.3d 159 (D.C. Cir. 2006); Votteler v. United States, 904 F.2d 128 
(2d Cir. 1990); McCall v. United States, 901 F.2d 548 (6th Cir. 1990); 
Wilder v. United States, 873 F.2d 285 (11th Cir. 1989); Vilanova v. 
United States, 851 F.2d 1 (1st Cir. 1988). In addition, the Federal 
Employee Liability Reform and Tort Compensation Act of 1988 
(``FELRTCA''), Pub. Law 100-694, 102 Stat. 4563, amended the Federal 
Tort Claims Act (``FTCA'') to confer immunity on employees of the 
Government from tort liability for negligent or wrongful acts or 
omissions within the scope of their employment and instead substitutes 
the Federal government for the named individual Government employee. 
This statutory immunity for individual Government employees applies in 
cases involving claims arising in foreign countries as well as those 
arising within the United States. See United States v. Smith, 499 U.S. 
160 (1991). The FTCA in turn retains the sovereign immunity of the 
United States with respect to such claims. See 28 U.S.C. Sec. 2680(k); 
United States v. Spelar, 338 U.S. 217 (1949); Sosa v. Alvarez-Machain, 
542 U.S. 692 (2004). Thus, Federal civilian employees who are deployed 
in foreign counties are treated in precisely the same manner as such 
employees stationed in the United States in terms of both the benefits 
to which they are entitled for work-related injuries and their ability 
to sue individual Government doctors or other personnel.
    Dr. Snyder. SIGIR and USIP testified they think Rule of Law needs 
more attention on PRTs in Iraq. Has DOJ been asked by State to provide 
more people? Would DOJ provide more personnel for PRTs if asked?
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Dr. Snyder. Did anyone add or subtract anything from your testimony 
besides the paragraph on the CRC on page 2?
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Dr. Snyder. On page 18 of your testimony it says allowances are 
established in law. Would DOJ recommend any changes to the law?
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Dr. Snyder. Please explain the difference between Danger Pay, 
Hardship Duty Pay and Hazardous Duty Pay.
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Dr. Snyder. Will your currently deployed and veteran PRT personnel 
fill out a survey?
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Dr. Snyder. Why can technical advisors have home leave after 1 year 
of deployment, while USG employees only get home leave after 24 months 
of continuous deployment? That must be difficult for those deployed to 
zones of active combat (Iraq and Afghanistan). Are the rules keeping up 
with the conditions of service?
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Dr. Snyder. What are your specific concerns for future staffing of 
assignments for non-DOD federal civilian employees in any combat zone? 
For example, will you be facing a significant reduction in qualified 
personnel due to an aging workforce? Do you anticipate difficulty in 
attracting suitable skilled and experienced volunteers for these 
positions? Are there laws or policies that restrict your ability to 
deploy personnel or deploy personnel involuntarily? What is your agency 
doing to mitigate these potential staffing problems?
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Dr. Snyder. What modifications, if any, to the current package of 
incentives, benefits, and medical care policies would increase the 
likelihood of attracting the best volunteers for these positions?
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Dr. Snyder. The Subcommittee has heard testimony that non-DOD 
federal civilian employees are currently receiving adequate medical 
care in Iraq and Afghanistan at military and embassy treatment 
facilities. The current DOD policy which states: ``The Under Secretary 
of Defense (Personnel and Readiness), under compelling reasons, is 
authorized to approve additional eligibility for [Military Treatment 
Facilities] for other U.S. Government civilian employees who become 
ill, contract diseases, or become injured or wounded while forward 
deployed in support of U.S. military forces engaged in hostilities, or 
other DOD civilian employees overseas.'' Are you also satisfied with 
this policy?
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Dr. Snyder. There appears to be a large discrepancy between the 
number of Office of Workers' Compensation Program claims filed under 
FECA \1\ by federal civilian employees who deployed to Iraq or 
Afghanistan for emotional stress disorders and the number of employees 
who report symptoms of these disorders. What is your organization doing 
to screen and survey your employees who have deployed to combat zones 
for Post-Traumatic Stress Disorder and other mental health problems? 
What action is your organization taking to encourage reporting of 
issues and to ensure adequate care and education? How are your 
specifically dealing with the stigma associated with admission of 
mental health and stress disorders and employees' fears that such 
admission will have negative effects such as career discrimination, 
loss of clearance, etc.?
---------------------------------------------------------------------------
    \1\ Federal Employees' Compensation Act.
---------------------------------------------------------------------------
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Dr. Snyder. What are your specific concerns for future staffing 
assignments for non-DOD federal civilian employees in any combat zone? 
For example, will you be facing a significant reduction in qualified 
personnel due to an aging workforce? Do you anticipate difficulty in 
attracting suitable skilled and experienced volunteers for these 
positions? Are there laws or policies that restrict your ability to 
deploy personnel involuntarily? What is your agency doing to mitigate 
these potential staffing problems?
    Mr. McDonald. My main concern and objective regarding any future 
staffing assignments for Treasury employees in a combat zone would be 
to ensure that Treasury continues to recruit and deploy highly 
qualified personnel, and to ensure for their safety, care and 
reintegration. It is a challenge to attract skilled and experienced 
volunteers to serve in combat zones, but Treasury's experience in Iraq 
and Afghanistan shows that it is possible. As noted in my October 16, 
2007 testimony, Treasury efforts to recruit skilled and experienced 
volunteers have met with a robust, positive response. In light of the 
inherent stresses of these assignments, it is important to Treasury 
that personnel assigned to these posts accept such assignments 
voluntarily. Treasury officials serving in Iraq and Afghanistan consist 
of both permanent USG hires and personal services contractors (PSCs). 
Recruiting PSCs allows Treasury to draw upon a large candidate pool 
outside of the Treasury Department. I do not anticipate a significant 
reduction in qualified personnel due to an aging workforce.
    Dr. Snyder. What modifications, if any, to the current package of 
incentives, benefits, and medical care policies would increase the 
likelihood of attracting the best volunteers for these positions?
    Mr. McDonald. Treasury's experience to date does not indicate a 
need to modify the current package of incentives, benefits, and medical 
care policies in order to attract well qualified and experienced 
volunteers for these positions. Treasury continues to follow the State 
Department's lead on compensation to ensure comparability in workforce 
benefits.
    Dr. Snyder. The Subcommittee has heard testimony that non-DOD 
federal civilian employees are currently receiving adequate medical 
care in Iraq and Afghanistan at military and embassy treatment 
facilities. The current DOD policy states: ``The Under Secretary of 
Defense (Personnel and Readiness), under compelling reasons, is 
authorized to approve additional eligibility for [Military Treatment 
Facilities] for other U.S. Government civilian employees who become 
ill, contract diseases, or become injured or wounded while forward 
deployed in support of U.S. military forces engaged in hostilities, or 
other DOD civilian employees overseas.'' Are you also satisfied with 
this policy?
    Mr. McDonald. The Treasury Department is satisfied with this 
policy. Treasury appreciates the willingness of the Department of 
Defense to extend these services to Treasury and other non-DoD civilian 
personnel, in the field. Throughout Treasury's engagements in Iraq and 
Afghanistan, the Department has been fortunate not to have had any of 
its staff become seriously ill, injured, or wounded while in country. 
We believe that if such a case were to occur, DOD's medical staff would 
provide prompt and high quality treatment. OTA's standard provisions 
regarding private health care insurance (which our program advisors 
serving in Iraq and Afghanistan are entitled to) complement DOD's 
Health Services and are especially important when advisors are away 
from post attending conferences, on R&R travel, etc.
    Dr. Snyder. There appears to be a large discrepancy between the 
number of Office Workers' Compensation Program claims field under FECA 
by federal civilian employees who deployed to Iraq and Afghanistan for 
emotional stress disorders and the number of employees who report 
symptoms of these disorders. What is your organization doing to screen 
and survey your employees who have deployed to combat zones for Post-
Traumatic Stress Disorder and other mental health problems? What action 
is your organization taking to encourage reporting of issues and to 
ensure adequate care and education? How are you specifically dealing 
with the stigma associated with admission of mental health and stress 
disorders and employees' fears that such admission will have negative 
effects such as career discrimination, loss of clearance, etc.?
    Mr. McDonald. Since 2002, not one Treasury employee returning from 
Iraq and Afghanistan (or other overseas assignments entailing danger 
and hardship) has claimed suffering from Post-Traumatic Stress Disorder 
or other mental illness.
    The Treasury Department's technical assistance program began its 
latest engagement in Iraq in mid-2006. The Department is only now 
beginning to approach a time period in which its technical advisors 
will be rotating out of their assignments due to the fact that most 
advisors have voluntarily extended their tours beyond their initial 
one-year commitments. To date, only one advisor has completed his one-
year posting and returned to the United States. With an eye toward the 
pending rotational turnovers, Treasury will be reaching out to the 
Department of State and the Department of Defense to draw upon their 
institutional experience and, if possible, resources for mental health 
screening. State has extended an offer to Treasury to have its 
technical advisors participate in State's post-tour debriefing program, 
and Treasury will accept this offer.
    To date, Treasury has conducted informal processes for assessing 
the mental state of its advisors who have worked in combat zones. This 
has involved constant communications with the advisors by management in 
Washington, post-action debriefs of those returning to the States, and 
advocating to the advisors that they draw on their available medical--
including mental health specific--resources. Treasury management is 
sensitive to the stress and danger that can weigh on personnel serving 
in war environments. Treasury management includes officials who have 
served in Iraq and/or Afghanistan and understand the conditions in 
which our advisors serve. At the same time, we are studying ways to 
improve our current approach to ensure that any returning personnel who 
are in need of specialized care due to their overseas assignments 
receive that care.
                                 ______
                                 
                   QUESTONS SUBMITTED BY MS. TAUSCHER
    Ms. Tauscher. Mr. Swartz: I included legislation in the House 
version of the 2008 National Defense Authorization Act to address the 
adequacy of death benefits for federal employees who deploy to combat 
zones. The government would cover the cost of relocation to the home of 
record for dependents of federal civilian employee who signed emergency 
mobility agreement. The Department of Justice, like DoD, has personnel 
that moves frequently from one posting to another. This provision would 
help the families of their employees in the event they die in a combat 
zone.
    Does the Justice Department support this death gratuity benefit for 
its employees?
    Mr. Swartz. [The information referred to was not available at the 
time of printing.]
    Ms. Tauscher. I included legislation in the House version of the 
2008 National Defense Authorization Act to address the adequacy of 
death benefits for federal employees who deploy to combat zones. The 
government would cover the cost of relocation to the home of record for 
dependents of federal civilian employees who signed an emergency 
mobility agreement. The State Department, like DoD, has personnel that 
move frequently from one posting to another. This provision would help 
the families of their employees in the event they die in a combat zone.
    Does the State Department support this death gratuity benefit for 
its employees?
    Ambassador Thomas. Department of State personnel do not sign 
``emergency mobility agreements'' in connection with their employment. 
Moreover, the Department has existing authorities which cover 
transportation of an employee's dependents to the home of record in the 
event of his/her death.

                                  <all>

</pre></body></html>
